<html>
<title> - PREVENTION OF YOUTH AND GANG VIOLENCE</title>
<body><pre>[Senate Hearing 109-77]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-77
 
                 PREVENTION OF YOUTH AND GANG VIOLENCE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2005

                               __________

                       PHILADELPHIA, PENNSYLVANIA

                               __________

                          Serial No. J-109-26

                               __________

         Printed for the use of the Committee on the Judiciary











                 U.S. GOVERNMENT PRINTING OFFICE

22-596                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



















                       COMMITTEE ON THE JUDICIARY


                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director





















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................    18
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     2
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    99
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Arias, Ileana, Acting Director, National Center for Injury 
  Prevention, Centers for Disease Control, Department of Health 
  and Human Services, Washington, D.C............................     8
Flores, J. Robert, Administrator, Office of Juvenile Justice and 
  Delinquent Prevention, Office of Justice Program, Department of 
  Justice, Washington, D.C.......................................    11
Hart, Sarah, Director, National Institute of Justice, Department 
  of Justice, Washington, D.C....................................     7
Johnson, Sylvester, Commissioner, Philadelphia Police Department, 
  Philadelphia, Pennsylvania.....................................    25
Kane, James, Executive Director, Delaware Criminal Justice 
  Council, Wilmington, Delaware..................................    27
McDonald, Regina, Assistant Chief, Pittsburgh Bureau of Police, 
  Pittsburgh, Pennsylvania.......................................    32
Meehan, Patrick, U.S. Attorney for the Eastern District of 
  Pennsylvania, Philadelphia, Pennsylvania.......................    23
Santorum, Hon. Rick, a U.S. Senator from the State of 
  Pennsylvania...................................................     5
Vallas, Paul, Superintendent, School District of Philadelphia, 
  Philadelphia, Pennsylvania.....................................    30

                       SUBMISSIONS FOR THE RECORD

Arias, Ileana, Acting Director, National Center for Injury 
  Prevention, Centers for Disease Control, Department of Health 
  and Human Services, Washington, D.C., prepared statement.......    41
Flores, J. Robert, Administrator, Office of Juvenile Justice and 
  Delinquent Prevention, Office of Justice Programs, Washington, 
  D.C., prepared statement.......................................    53
Hart, Sarah, Director, National Institute of Justice, Department 
  of Justice, Washington, D.C., prepared statement...............    64
Johnson, Sylvester, Commissioner, Philadelphia Police Department, 
  Philadelphia, Pennsylvania, prepared statement.................    82
Kane, James, Executive Director, Delaware Criminal Justice 
  Council, Wilmington, Delaware, prepared statement..............    93
McDonald, Regina, Assistant Chief, Pittsburgh Bureau of Police, 
  Pittsburgh, Pennsylvania, prepared statement...................   100
Meehan, Patrick, U.S. Attorney for the Eastern District of 
  Pennsylvania, Philadelphia, Pennsylvania, prepared statement...   102
Vallas, Paul, Superintendent, Schools District of Philadelphia, 
  Philadelphia, Pennsylvania, prepared statement.................   115






















                 PREVENTION OF YOUTH AND GANG VIOLENCE

                              ----------                              


                         MONDAY, JUNE 13, 2005

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 9:00 a.m., in the 
Kirby Auditorium, National Constitution Center, Philadelphia, 
Pennsylvania, Hon. Arlen Specter, Chairman of the Committee, 
presiding.
    Present: Senators Specter, Biden and Feinstein.
    Also Present: Senator Santorum.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen. The 
United States Senate Judiciary Committee will now proceed with 
our hearing on juvenile violence. This is a problem nationally 
of epidemic proportion, a very, very serious problem in this 
city of Philadelphia and in the Commonwealth of Pennsylvania. 
Where we reside during the week, in Washington, it is the 
subject of daily headlines just as it has been here in this 
city.
    We have a distinguished array of national witnesses today 
to focus on what are some of the programs which work and where 
our Federal resources ought to be directed. We're being joined 
here today by the distinguished Senator from California, 
Senator Dianne Feinstein, who has been a national leader on 
this subject and has introduced very important legislation 
which is now pending before the Judiciary Committee. My 
distinguished colleague Senator Santorum and I welcome Senator 
Feinstein and thank her for coming to Philadelphia this 
morning. We will be joined a little later by Senator Biden.
    This is an issue which I have seen on the personal level 
for more than four decades going back to my days as an 
assistant district attorney and then district attorney. In the 
late 1960s, early 1970s, there was a race between Chicago and 
Philadelphia as to which city would have the most gang deaths. 
Those statistics, ominous as they were at that time, pale in 
significance with the current problems with juvenile violence.
    In the first five months of this year there has been an 
enormous increase in juvenile violence with some 63 deaths 
recorded among those 24 years of age and younger, compared to 
41 for the first five months of last year, an increase of, as 
you can note, of more than 50 percent. The Commonwealth of 
Pennsylvania receives funding--
    We are going to have to run the clock, whoever is in charge 
of the clock, because the Chairman gets five minutes like 
everybody else for an opening statement. I will estimate that I 
have used two-and-a-half minutes so we will maintain a parity 
of time. That is one of the difficult matters in Senate 
hearings, and that is keeping people on time. But I think it is 
worth noting that the Majority Leader has scheduled a vote this 
afternoon on Thomas Griffith for Court of Appeals for the D.C. 
Circuit, so that we all have duties to be back in Washington 
and we are targeting a conclusion in advance of 12 o'clock. So 
we will be asking everybody, not only Senators but witnesses, 
to maintain the time limits.
    But as I was in mid-sentence before noticing the absence of 
the clock running--the Commonwealth of Pennsylvania receives 
some $160 million a year, and Senator Santorum and I on behalf 
of the Pennsylvania delegation are working coordinately with 
the Governor for an evaluation of what programs work and what 
programs do not work. The same evaluation is being made on the 
national level, and through the chairmanship of the Judiciary 
Committee we are going to be taking a close look on 
reauthorization as to which programs are going to be continued, 
because I am convinced that if we target our finances that we 
have a good chance to deal effectively with this problem. It is 
never going to be eliminated but it certainly can be reduced.
    There is another significant dimension which is worth 
comment and that is that the Centers for Disease Control has 
now identified juvenile violence as a mental problem. I 
coordinately chair the Appropriations Subcommittee which funds 
the Centers for Disease Control and have talked to the director 
Dr. Gerberding with the view to perhaps targeting an earmark 
for this city or elsewhere in Pennsylvania, or elsewhere in the 
United States, to see to what extent the mental health issue 
may be a factor to be considered.
    My time has expired so I am going to yield to the 
distinguished Senator from California, who has had a lot of 
experience in this field in her tenure as mayor of San 
Francisco, another wonderful city but a tough city on crime. 
Senator Feinstein, thank you for joining us. We look forward to 
your opening statement.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. If I 
may, I would like to enter into the record the statement of 
Senator Leahy, the ranking member of the Committee.
    Chairman Specter. Yes, without objection, Senator Leahy's 
statement will be made a part of the record. He had wanted to 
join us here but could not because of a scheduling conflict. He 
is the ranking member of the Committee.
    Senator Feinstein. Thank you very much. Thank you for 
holding this hearing, and I am delighted to be able to make it.
    Criminal street gangs have grown over the past two decades 
from a local problem into a national crisis. Every day we read 
about a new tragedy where a gang member has shot a police 
officer as part of an induction ceremony, used a machete to 
murder an innocent victim, or tracked down and killed someone 
who may have witnessed a crime. There are reports of gangs 
actively recruiting elementary schoolers seven and eight years 
old into the criminal enterprise. They must be stopped.
    I would like to take a moment to outline the magnitude of 
the problem. It is estimated that there are 840,000 active gang 
members in the United States operating in every State of the 
Union. Ninety percent of our large cities with a population of 
over 100,000 report gang activity. And that is not the full 
extent of the problem.
    In 2002, 32 percent of cities with a population of 25,000 
to 50,000 reported a gang-related homicide. In California, my 
State, the most recent statistics available indicate that 
between 1992 and 2002--now listen to this, 7,851 people were 
killed in gang-related violence. In the first quarter of 2005, 
Los Angeles County alone reported 1,727 gang crimes. In 2003, 
nationally there were 115 gangland murders and 817 juvenile 
gang killings. Now this is organized crime with a 115 and 
juvenile gangs with 817. That gives you the ratio.
    Youth gangs kill seven times as many people as so-called 
organized crime. In fact many street gangs are now highly 
organized, hierarchical corporations with boards of directors, 
governors and regional coordinators. The Los Angeles chief of 
police, Bill Bratton, has said this, ``There is nothing more 
insidious than these gangs. They are worse than the Mafia. Show 
me a year in New York where the Mafia indiscriminately killed 
300 people. You cannot.''
    In recognition of this emerging, the FBI last month formed 
a nationwide task force to disrupt the organization of the 
notorious MS-13. This single gang operates in 33 States with an 
international membership in the hundreds of thousands. On 
Christmas Eve 2004, MS-13 members gunned down 28 commuters on a 
passenger bus in Honduras. The mastermind of that attack was 
arrested in Texas in February, so you see the international 
connection. This same gang is responsible for the brutal murder 
of a 17-year-old informant in Virginia. She was four months 
pregnant and stabbed 16 times in the chest and neck. I need not 
remind my colleagues of the wave of machete attacks perpetrated 
by MS-13 in the Washington, D.C. area.
    Just as the RICO Act--that is the racketeering statutes--
were needed to break up Mafia rings, I believe Federal and 
local law enforcement need a strong set of tools to combat 
violent gangs today. With my distinguished colleagues, Senators 
Hatch, Grassley, Kyl and Cornyn I have introduced S. 155, the 
Gang Prevention and Effective Deterrence Act of 2005. Its main 
point is to create a new type of crime by defining and 
criminalizing criminal street gangs. This recognizes the basic 
point of a street gang. It is more powerful, more dangerous 
than its individual members. Defeating gangs means recognizing 
what is dangerous about them and then making that conduct 
illegal. This bill does that.
    First, it makes participation in a criminal street gang a 
Federal crime for the first time. And it defines a criminal 
street gang. The legislation also makes it a crime for a member 
of a criminal street gang to commit, conspire, or attempt to 
commit two or more predicate gang crimes, or to get another 
individual to commit a gang crime. The term gang crime is 
defined to include violent and other serious State and Federal 
felony crimes such as murder, maiming, manslaughter, kidnaping, 
arson, robbery, assault with a dangerous weapon, obstruction of 
justice, carjacking, distribution and sale of a controlled 
substance, certain firearms offenses, and money laundering. And 
it criminalizes violent crimes in furtherance or in aid of 
criminal street gangs.
    These two provisions are at the heart of this legislation. 
Armed with this new law, Federal prosecutors working in tandem 
with State and local law enforcement will be able to take on 
gangs, in much the same way as they did traditional Mafia 
families having been systematically destroyed by effective RICO 
prosecutions.
    I was told I could take a few extra minutes since I came 
all this great distance.
    Senator Santorum. I yield my time.
    Chairman Specter. Senator Feinstein, I was about to give 
you as much time as you needed, but with that concession--
    Senator Feinstein. I do not want to be overbearing but I 
would like to finish.
    Chairman Specter. Senator Santorum will have his time too. 
We will give you 20 seconds a mile.
    Senator Feinstein. Thank you very much.
    The Gang Prevention and Effective Deterrence Act is a 
comprehensive bill to increase gang prosecution and prevention 
efforts. The bill authorizes approximately $750 million over 
the next five years to support Federal, State and local law 
enforcement efforts against violent gangs, including the 
funding of witness protection programs and for intervention and 
prevention programs for at-risk youth. In support of this 
effort the bill increases funding for Federal prosecutors and 
FBI agents to increase coordinated enforcement efforts against 
violent gangs.
    In addition to enforcement, we have got to encourage 
community response to the gang problem. Gang members are 
increasingly seeking to silence those who step forward to 
incriminate them. Routine witness intimidation has given away 
to routine witness execution.
    As an example, recent press reports from Boston show that 
gang members are distributing what is, in essence, a witness 
intimidation media kit, complete with graphics and CDs that 
warn potential witnesses that they will be killed. One CD 
depicts three bodies on its cover. In another incident a 
witness' grand jury testimony was taped to his home. Soon 
afterward he was killed. I believe it is vital to support those 
who speak out against the violence in their communities and 
this bill provides $60 million to create and expand witness 
protection programs.
    Most of all, we have got to keep our children and 
grandchildren out of these gangs. We must identify and fund 
successful community programs that stem gang recruitment and 
participation. Additionally, my bill would make it a felony to 
recruit a juvenile into one of these gangs.
    Today we will learn from those on the front lines in the 
effort to combat crime and youth violence, how to best approach 
this issue, what works, what does not work, and how to combine 
effective law enforcement tools with workable prevention 
mechanisms. The bill authorizes $250 million to make grants 
available for community-based programs to provide for crime 
prevention and intervention services for gang members and at-
risk youth in areas designated as high intensity interstate 
gang activity areas. We must ensure that this funding is used 
wisely.
    The bottom line is that this legislation would provide the 
tools and the resources to begin the national task of 
destroying criminal street gangs. It is designed to emphasize 
and encourage Federal, State, and local cooperation. It 
combines enforcement with prevention. It is a tough, effective 
and fair approach. For nearly 10 years now I have been working 
with my friend Senator Hatch on legislation to provide law 
enforcement with the tools it needs to prosecute, prevent and 
deter illegal gang activity. Last Congress we reached a 
bipartisan consensus and this committee reported our bill to 
the Senate floor favorably. Unfortunately, there was not enough 
time for the whole Senate to consider the bill.
    So again, Mr. Chairman, I thank you for calling this 
hearing. We urge that there be a markup on this bill. We very 
much hope that you will join us as a co-sponsor, and we 
presented for the audience a pamphlet which I would like to 
urge you to take with you which describes the growth of gangs 
all throughout the United States. For example, Bloods and Crips 
began in one American city: Los Angeles. It is now in 120 
American cities. Gangster Disciples began in Chicago. It is now 
in more than 33 cities. And on and on and on.
    So I hope this proves helpful and I thank you very much for 
the time.
    Chairman Specter. Thank you very much, Senator Feinstein. I 
will be joining as a co-sponsor.
    Senator Feinstein. Thank you; delighted.
    Chairman Specter. And we will be putting the bill on our 
executive session to move it along for enactment.
    I now turn to my distinguished colleague, Senator Rick 
Santorum. Rick and I have been closely watching the situation 
on national juvenile violence with special reference to what is 
happening in Pennsylvania and here in Philadelphia, and some 
time ago decided that it would be very useful if we came one 
day here for a hearing and invited colleagues, and I am pleased 
to turn to him now for his opening statement.

STATEMENT OF HON. RICK SANTORUM, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Santorum. Thank you, Mr. Chairman, and thank you 
very much for holding this hearing. This is an important issue 
here in the city of Philadelphia and across the country. It is 
great that you could bring some of our best and brightest from 
around the country to address this issue.
    Senator Feinstein, thank you too for being here today, and 
you can add my name as a co-sponsor to your legislation also. I 
had watched it last year and find that it, I think will be a 
very helpful contribution to the effort that we have before us.
    Let me also thank the panelists for being here and again 
appreciate all the work that you have done in this area of gang 
violence, and violence and criminal justice in general.
    As Senator Specter and Senator Feinstein both said, this is 
a problem that not just is confronting big cities like San 
Francisco and Los Angeles and Philadelphia, but has spread 
throughout the United States. There is not hardly any small 
town in America anymore of any kind of size that does not have 
some sort of gang activity located. If there is any center of 
poverty in those communities there is likely to be gang 
activity. I think that points in large measure to some of the 
problems that we have confronting us. When you have 
hopelessness, when you have people who are disconnected, they 
seek to get connected, and in many cases, particularly for 
young males but increasingly, unfortunately, for young females 
also, they get connected to gang activity, to an organization 
that they feel some sense of belonging to.
    We need to get at those root causes that Senator Specter 
talked about, as well as be very tough on those who are the 
recruiters and those who are the organizers of these gangs, as 
Senator Feinstein has talked about. So we need to both look at 
prevention as well as attack the problem that exists today.
    The area that I have focused on quite a bit is on the 
prevention side, which I think goes to anti-poverty programs 
and programs that help strengthen families. The fact is that 
you are three times more likely to be in a gang if you were 
raised in a home without a father in the home. That to me is a 
pretty good indicator that we need to do something to 
strengthen the role of fathers in our families.
    Senator Bayh and I have worked together on a national 
fatherhood initiative program, everything from taking fathers 
who are released from prison to try to mentor them and help 
them to try to reunify them with their families so they can be 
a positive influence on their children, to the President's 
healthy marriage initiative to try to, before the child is even 
born, trying to stabilize and to assist those families that are 
in the making, if you will, so fathers do not separate from the 
mother of their child and stay and participate, whether in 
marriage or whether just in a way that they are connecting to 
their children. To me, it is obvious from the statistics as 
well as common sense that that is a severe problem that leads 
to not just gang problems but a whole myriad of problems in our 
society, and that we have some role, limited as it may be, some 
role in the Government to try to be helpful in that regard.
    So I look forward to hearing the testimony today. I thank 
you again, Senator Specter, for holding this hearing in 
Philadelphia and tried to save a little time for you. I have 
got a minute and 26 seconds left to yield back to you.
    Chairman Specter. Thank you very much, Senator Santorum.
    We now turn to our first witness, Ms. Sarah V. Hart, the 
distinguished Director of the National Institute of Justice 
where she has served since 2001. Prior to the time she was a 
delegate to the United Nations Crime Commission 2002 conference 
and a member of the National Academics of Science Roundtable on 
Terrorism. For six years from 1995 to 2001, she served as chief 
counsel for the Pennsylvania Department of Corrections and was 
a 16-year prosecutor in the Philadelphia District Attorney's 
Office. It goes to show you how time has flown because you were 
there after I was there, which is some time ago.
    She has her bachelor's degree in criminal justice from the 
University of Delaware and her law degree from Rutgers School 
of Law where she was an associate editor of the law review. So 
she brings a background in Pennsylvania crime control and very 
extensive experience on the national level.
    Thank you for joining us, Ms. Hart, and we look forward to 
your testimony.

   STATEMENT OF SARAH HART, DIRECTOR, NATIONAL INSTITUTE OF 
        JUSTICE, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Ms. Hart. Thank you very much, Mr. Chairman.
    The National Institute of Justice is the research and 
development arm of the Department of Justice and our primary 
mission is to research criminal justice issues for State and 
local governments. Mr. Chairman and members of the Committee, 
we are honored to be able to present research findings to you 
on this very important question, and it is also an honor to be 
here in my hometown of Philadelphia. Thank you.
    The National Institute of Justice has a long history of 
supporting research relating to local efforts to reduce gun 
crime, especially among 18- to 30-year-olds. NIJ sponsored the 
Boston Ceasefire Project as well as similar efforts across 
other major cities. My written testimony provides detailed 
information about short-term and long-term strategies to 
address these issues. Given the time constraints of this 
hearing, my colleague Bob Flores of the Office of Juvenile 
Justice and Delinquency Prevention will focus on prevention 
strategies. I will primarily focus on interventions that reduce 
and disrupt violent crime and the questions posed by the 
Chairman.
    Mr. Chairman, you asked from a national perspective what 
programs and other interventions have been successful. In the 
area of effective policing, comprehensive problem-solving 
strategies have proven to be effective. These approaches 
require a systematic analysis of the nature of the crime 
problem, a focus on geographic locations with high 
concentrations of crime, a focus on likely offenders, and 
community and criminal justice system coordination.
    Because problem-solving approaches involve tailoring a 
response to the local problem, these are not a canned program. 
However, components of successful programs usually involve the 
following: crime mapping, much like you see here on a 
Philadelphia map; disruption of illegal gun markets; addressing 
illicit gun use; focus on particular gangs or focus on 
particular known offenders. Project Safe Neighborhoods 
incorporates many of these strategies.
    Mr. Chairman, you also asked about the cost of successful 
programs and their potential impact. Problem-solving approaches 
usually involve numerous public and private entities that 
redirect existing resources. For this reason, it is often very 
difficult to parse out precise overall costs. But cost-benefit 
research suggests that the overall benefits to successful 
intervention programs clearly offset their anticipated costs. 
Some of the most effective programs can be very intensive and 
expensive, but the estimated long-term savings to taxpayers and 
crime victims can be substantial.
    This research even tends to undervalue societal benefits. 
For example, current cost-benefit comparisons tend to 
undervalue the cost of crime. For example, they often do not 
consider community costs, such as crime-related declines in 
property values, loss in tax revenues when citizens will move 
out of a jurisdiction to avoid a crime problem, private 
security costs that homeowners and businesses incur to harden 
targets against potential crime. In addition, there are often 
intangible costs such as pain and suffering of crime victims 
and lost opportunity costs.
    Mr. Chairman, you have also asked about unsuccessful 
programs. Research has shown that a number of programs, 
including some very popular ones, are not effective. Some of 
these programs include the DARE program, traditional boot 
camps, gun buyback programs, and group therapy programs that 
often bring together delinquent youth where they can reinforce 
negative behaviors.
    You also asked how the research can address Philadelphia's 
increased youth violence problem. The research supports a 
comprehensive approach like Project Safe Neighborhoods that 
targets high crime locations and likely offenders. Potential 
interventions should include homicide and violent incident 
reviews, chronic violent offender lists, gun violence case 
screenings by prosecutors, violent offender notification 
meetings, police probation teams, and prevention programs with 
proven effectiveness. In addition, current jurisdictions should 
look at their existing programs to see if they should be 
reevaluated in light of other successful programs.
    Finally, Mr. Chairman, you asked me why some successful 
youth violence programs have become ineffective. In addition to 
economic incarceration issues, there are also legitimate 
questions about program sustainability. Oftentimes successful 
programs are victims of their own success. There is a reduced 
sense of urgency for the problem and it is harder to compete 
for scarce resources.
    Thank you very much, Mr. Chairman, for the opportunity to 
speak here today and we would be happy to provide additional 
information to the Committee.
    [The prepared statement of Ms. Hart appears as a submission 
for the record.]
    Chairman Specter. Thank you, Ms. Hart. Your full statement 
will be made a part of the record, as will all of the 
statements.
    We turn now to Dr. Ileana Arias, Acting Director for 
Centers for Disease Control's Injury Center since June of last 
year. She is responsible for the expansion of State programs 
for injury prevention, and new research in areas of child 
maltreatment. Prior to her appointment as acting director she 
was chief of the Division of Violence Prevention at CDC, and 
she had been director of clinical training and professor of 
clinical psychology at the University of Georgia in Athens. She 
has a bachelor's degree from Barnard, and an M.A. and a Ph.D., 
both in psychology, from the State University of New York.
    Thank you for coming to Philadelphia today, Ms. Arias, and 
we look forward to your testimony.

STATEMENT OF ILEANA ARIAS, ACTING DIRECTOR, NATIONAL CENTER FOR 
 INJURY PREVENTION, CENTERS FOR DISEASE CONTROL, DEPARTMENT OF 
          HEALTH AND HUMAN SERVICES, WASHINGTON, D.C.

    Ms. Arias. Good morning, Chairman Specter, Senator 
Feinstein, and Senator Santorum. Thank you very much for the 
opportunity to share the exciting work that CDC is doing to 
address the issue of youth violence in the United States.
    Chairman Specter. Ms. Arias, would you pull the microphone 
just a little closer? Or as Senator Thurmond would say, pull 
the machine--
    Ms. Arias. Is that better?
    Chairman Specter. Senator Santorum says, he said, speak 
into the machine. We miss Senator Thurmond.
    Ms. Arias. I am also very honored to join my colleagues 
from the Department of Justice to address the issue today. In 
addition to my warm greetings and thank you, I also bring you 
greetings from the director of CDC, Dr. Julie Gerberding.
    Youth violence is a very important public health issue. 
Homicide, as a lot of us know, is the second leading cause of 
death among youth in America between the ages of 15 and 24. It 
is the leading cause of death among African-American youth 
between the ages of 15 and 34. And the problem does not stop 
with the deaths. Injuries severe enough for emergency 
department responses leading to long-term consequences and 
treatment are very common. In 2002, over 875,000 injuries 
resulted from violence against youth, and one out of 13 of 
those required hospitalization.
    Injuries are the obvious consequences to youth violence. 
However, there are others that are significant and important as 
well. We know that youth violence is a precursor to a number of 
mental health and chronic health conditions like anxiety 
disorders, depression, asthma, headaches, and other kinds of 
problems that are usually associated with prolonged exposure to 
stress.
    As difficult as it is to report these numbers, I do have 
some good news. We know that youth violence is preventable. At 
the CDC, we gather information on the impact and causes of 
youth violence and try to translate that information into what 
you can be done in order to prevent it. We know that early 
prevention and intervention are extremely critical in order to 
be successful in our efforts to prevent youth violence. We also 
know that the role of parents is equally critical in that 
effort. Experiencing and witnessing violence either in the home 
or the community is a significant risk factor. But we also know 
that there are significant factors that protect youth against 
violence, both against perpetration or victimization. Most 
importantly connectedness to family, to community, to schools, 
et cetera, has been and could show to significantly protect.
    We have used this information to identify and disseminate 
programs that have been shown to be effective in reducing youth 
violence and preventing the significant consequences associated 
with it. The Resolving Conflict Creatively Project at Columbia 
University that is being conducted by members of the Academic 
Centers of Excellence have shown that not only is the program 
effective in increasing pro-social behavior on the part of 
youth who participate, it is also effective in reducing violent 
behavior. Likewise, Peace Builders, which was developed in 
Arizona to deal with very young children, that is K-5 equally 
have shown that it is possible to increase pro-social patterns 
of behavior among children and decrease violence, including 
injuries associated with that violence.
    We have recognized via home visitation programs can be very 
effective in reducing child abuse. In fact, 40 percent 
reduction in child abuse associated with families who have been 
recipients of those programs; child abuse, which is a 
significant precursor to youth violence. More importantly, we 
recognize the importance of communities deciding what it is 
that they need to do in order to prevent the problem of youth 
violence in their communities appropriate to the conditions 
that face them.
    In order to address that issue we have published Best 
Practices for Youth Violence Prevention, a source book for 
community action, that presents a number of different 
strategies that can be adopted by a community on the basis of 
expert opinion that can be effective in reducing youth 
violence. The practices included run the gamut from 
individually focused practices to community interventions that 
rely on the collaboration community organizations, faith-based 
organizations, et cetera.
    Youth violence is a complex problem best addressed in a 
very comprehensive way. We recommend that efforts to address 
youth violence begin early in infancy and continue through 
adolescence, involving schools, community and faith-based 
organizations, public health, social services, criminal justice 
and families.
    In conclusion, I would like to say that CDC has been 
committed to addressing the issue of youth violence. We remain 
committed to that effort, bringing the expertise and the 
strengths of the public health perspective to prevent youth 
violence. In conclusion, thank you very much for the ability 
and the opportunity to share what it is that we have been 
working on and again expressing our continued interest in 
continuing to address the issue of youth violence across the 
Nation. Thank you.
    [The prepared statement of Ms. Arias appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Ms. Arias.
    We have been joined by our distinguished colleague, Senator 
Joseph Biden, from Delaware. Senator Biden, first elected in 
1972 at the age of 29, has served as Chairman of the Judiciary 
Committee, now as ranking member of Foreign Relations, had been 
Chairman of Foreign Relations, and is really a national 
spokesman on matters of international affairs.
    Senator Biden, we yield to you for an opening statement.
    Senator Biden. I will wait till just before the second 
panel. I do not want to interrupt this panel. I thank you very 
much though, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Biden. Then 
we will proceed with the testimony of Mr. J. Robert Flores who 
is the Administrator of the Office of Justice Programs in the 
Department of Justice for juveniles. Before that appointment, 
in 2002 he was vice president and senior counsel of the 
National Law Center for Children and Families, had been senior 
trial attorney in the Department of Justice in the Obscenity 
Section where he prosecuted the first case involving computer 
child pornography to go to trial. He has a bachelor's degree in 
business administration from Boston University and his 
doctorate in law from the Boston University School of Law.
    Thank you for joining us, Mr. Flores, and we look forward 
to your testimony.

    STATEMENT OF J. ROBERT FLORES, ADMINISTRATOR, OFFICE OF 
  JUVENILE JUSTICE & DELINQUENT PREVENTION, OFFICE OF JUSTICE 
       PROGRAMS, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Flores. Thank you, Mr. Chairman, and members of the 
Committee. I am really pleased to have an opportunity to be 
here today and to testify about the current state of violence 
and juvenile crime in our major cities.
    I want to emphasize that OJJDP, the office that I head, 
advocates and employs a comprehensive approach to addressing 
juvenile justice problems with the goal of providing today's 
kids with opportunities for a better tomorrow. We recognize 
that here in the city of Philadelphia citizens have been faced 
with the tragic reality of innocent children being caught in 
crossfires. In preparation for today's hearing I have taken a 
close look at the juvenile arrest data for Philadelphia County. 
As with the national numbers, the overall arrest rates for 
juvenile violent crime have gone down since 1993. However, 
between 2001 and 2004, the most recent number that we have, 
there have been increases in juvenile arrests in some key 
areas, including aggravated assault, robbery, weapons law 
violations, and murder. In fact the rates nearly doubled during 
those years with regard to weapons law violations and murders.
    While all of the rates are still far below the 1993 rates, 
these recent increases emphasize the importance of our 
continued attention to juvenile violence. Other cities like 
Philadelphia are also experiencing the pain of burying children 
due to similar circumstances, and oftentimes these harsh and 
unacceptable crimes leave communities with a sense of 
hopelessness. Today I want to provide you with a national 
snapshot of current information on efforts our agency has in 
place, both here in Philadelphia and throughout the Nation, to 
address this issue.
    Through violence evaluation we have advanced our knowledge 
substantially about what leads to juvenile violence and 
delinquency. We also know something about how to prevent and 
address it. Violence prevention and intervention efforts hinge 
on the identification of risk and protective factors, and the 
determination of when they emerge during child development. 
Since 1996, OJJDP has sponsored longitudinal studies on the 
causes and correlates of delinquency, which are designed to 
improve understanding of serious delinquency, violence, and 
drug use by examining how individual juveniles develop within 
the context of family, school, peers, and communities. I have 
to underscore the importance of being able to do that research 
and the important information that that research leads to.
    Early warning signs of disruptive behaviors must not be 
dismissed. Rather than assuming that these behaviors will pass, 
teachers, parents, and mental health practitioners need to 
recognize that the research clearly shows that disruptive 
behavior should be taken seriously. Interventions are more 
successful if the child has not already begun moving along 
pathways towards more serious delinquent activity.
    Through a grant to the National Center for Juvenile Justice 
in Pittsburgh, OJJDP compiles a complete set of informational 
data pertaining to the juvenile justice field. The substantial 
growth in juvenile violent crime arrests that began in the late 
1980s peaked in 1994. In 2003, juvenile arrests for violence 
were the lowest since 1987, and juvenile arrests for property 
crimes were the lowest in three decades. A very small 
percentage of juveniles commit these violent and property 
crimes. If one assumed that each arrest involved a different 
youth, which is unlikely, then about one-third of 1 percent of 
all juveniles age 10 to 17 living in the U.S. were arrested for 
a violent crime. The proportion of property crime offenses 
resolved by the police that involved juveniles in 2003 was 
about 20 percent, the lowest level since 1980.
    If we take a look at the things that we can apply from the 
research that we have done, we realize that clearly one of the 
things that has to happen is that we have to provide some 
comprehensive efforts to address some of the needs of these 
kids. We have invested substantially at the University of 
Colorado in Boulder at the Center for the Study and Prevention 
of Violence in taking a look at what programs work. We call it 
the Blueprints Project. That project is a way of taking a look, 
a very hard look at programs to see whether or not not only do 
they deliver on what they say they will show and do, but also 
whether or not those programs can be replicated across the 
country. It is a very rigorous review, and after taking a look 
at nearly 600 programs the Blueprints Initiative identified 11 
model programs and 21 promising programs.
    As demonstrated by these model and promising programs, 
prevention is one of the most cost-effective methods for 
reducing juvenile delinquency. Through the Title V community 
prevention grants and the juvenile family drug courts, we are 
also providing services and evaluating the impact of focusing 
on the promotion of healthy childhood development.
    I want to underscore also that through the coordinating 
council and the work that is being done now in the OJJDP gang 
reduction pilot programs we are working with our colleagues at 
HHS, at HUD, at Labor, with our other components, with sister 
agencies like NIJ and BJA so that we are not leaving this just 
to the Justice Department's budget, just to the Justice 
Department's resources but really taking a look at making sure 
that we bring all of the resources that Congress has provided 
to bear to address this very significant problem.
    [The prepared statement of Mr. Flores appears as a 
submission for the record.]
    Chairman Specter. Thank you very much. Mr. Flores.
    Senator Biden, would you care to make your statement or in 
advance of the second panel?
    Senator Biden. No, I will wait.
    Chairman Specter. Then we will now proceed to our customary 
questioning by members of the panel by the Senators, each of 
which is within a five-minute time parameter.
    Ms. Hart, you testified about group therapy and about an 
evaluation of programs related to drug addiction. I attended a 
program on group therapy many years ago at Swan Lake where they 
had ex-drug addicts with a group of 10 people in counseling, 
with sessions which ran all night for a very protracted period 
of time. I would be interested in your evaluation as to, if you 
are familiar with what happened at Swan Lake, how successful 
that has been on the national level. I know it has been copied 
at Cadencia House which originated here in the Philadelphia 
suburbs and is now of national import.
    Ms. Hart. Mr. Chairman, I am not familiar with that 
particular program but we would be very happy to go back and 
look and provide the Committee with additional information that 
we may have on that.
    Chairman Specter. With respect to the addictive programs, 
that is a subject which we have examined in the Subcommittee on 
Health and Human Services over many years. Are there really 
reliable statistics to tell us what programs on curing 
addiction, alcoholism or drugs are really successful?
    Ms. Hart. I believe we have some information on that. There 
obviously is wide variation in different types of drug 
treatment. Some are more effective than others.
    But one of the things that we definitely know is the very 
close link between criminal behavior and drugs and the need to 
invest in appropriate to drug treatment to reduce crime.
    Chairman Specter. Ms. Arias, I am fascinated by the 
approach of the Centers for Disease Control in some 
conversations with Dr. Gerberding who is the director as to the 
impact of mental health on juvenile violence. Could you expand 
on what is the thinking of CDC as to the causal connection 
there, if any?
    Ms. Arias. CDC is committed to addressing issues of mental 
health, as you know, both--
    Chairman Specter. Speak into the machine, Ms. Arias.
    Ms. Arias. CDC is committed to looking at mental health 
issues, both in terms of mental health as a precursor to youth 
violence and youth violence then producing or leading to mental 
health problems. There is a significant association there. 
There is, unfortunately, a very high rate of violence among 
children who have been diagnosed with having a psychiatric 
disorder, and equally likely for children who have been exposed 
both as perpetrators and/or victims to be at very high risk for 
developing those disorders over time.
    The issue for us is trying to identify what are the common 
factors in both the development of psychiatric disorders and 
development of youth violence in order to address those issues 
as early on as possible in order to both. So that by 
identifying what are the common risk factors, what are the 
common protective factors, what we hope to do is create a 
situation where we do not have to then come up with 
interventions later on after a child has developed either a 
psychiatric disorder and/or a violent behavior pattern.
    Chairman Specter. This is a subject we are going to want to 
pursue with you and we may do so on our subcommittee hearings 
on health and human services.
    Mr. Flores, you talk about prevention as the most cost 
effective and you refer to the 11 model programs with 21 
promising programs after reviewing over some 600 programs. What 
are the common elements of the programs which work?
    Mr. Flores. Mr. Chairman, a couple of the common elements 
are, one, that the process of implementation is very clear. 
These programs have taken the time to really document what they 
do, to make sure that they have identified those things which 
are critical and have to be repeated, and that they have a very 
clear method of operation, so that it is not left--
    Chairman Specter. What are the factors identified as 
critical?
    Mr. Flores. Let us take Big Brothers-Big Sisters for 
example. That is one of the model programs. One of the things 
that we know is that while mentoring is an incredibly important 
and very positive program, if it is carried out without the 
proper support and if it lasts less than six months the results 
are sometimes worse than if the mentoring did not take place at 
all. One of those is probably common sense.
    Chairman Specter. Are you familiar with the program called 
GEAR UP which Congressman Fattah originated which has been 
funded by the subcommittee for about $2 billion over the last 
six years which focuses on mentoring?
    Mr. Flores. I am only familiar with the fact that we are 
funding that, Senator. I can get you additional information.
    Chairman Specter. You are not funding it. We are funding 
it.
    Mr. Flores. I understand that.
    Chairman Specter. That is an important distinction. My time 
is up.
    Senator Feinstein.
    Do you want to add something, Mr. Flores, in defense of who 
is funding what?
    Mr. Flores. No, sir.
    Chairman Specter. Very wise.
    Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman. I was very 
interested in the testimony.
    Let me give you my observation. I think a lot begins very 
early in life in school. Youngsters cannot socialize, they 
cannot connect to the rest of the class. Generally it is all 
right up to about grade four, and then the emotional dropping 
out takes place, and by grade seven and eight they are ready 
for something that adds to their life. That is where the early 
gang recruiters come in.
    In two of your papers you discuss two projects. One is the 
Pathways to Assistance here in Philadelphia, an OJJDP funded 
program, and the other is a program K-5 in Arizona, CDC funded, 
Peace Builders, both of which it seems to me try to deal with 
the problem of the school youngster who really cannot connect 
to anything meaningful in their life. I am wondering if you 
could speak more about this as an issue.
    On one level you get the Columbine youngsters, which 
probably have two parents. Nonetheless, they went through all 
of the machinations they went through. Then you have youngsters 
who really do not have much parenting, who never learn basic 
values at home who come into the school system. It seems to me, 
regretfully, that schools are charged with doing more and more 
and more for youngsters. But there is this critical dimension 
and the only word I know is socialization, and I do not like 
the word. But there needs to be more mechanisms in elementary 
school to see that that is achieved, whether it is Big Brother 
or GEAR UP or Big Sister, but programs which can drive a 
positive sense of value and connect youngsters to each other.
    Could you comment on that, anyone? Mr. Flores, let us begin 
with you and go right down the line.
    Mr. Flores. One of the things that we do find is extremely 
helpful are afterschool programs, things that allow these kids 
to really connect outside the normal school day. They really 
provide a tremendous motivation. It is an opportunity for 
teachers, volunteers, the people who run those programs to 
really connect. It is really the same basis that we believe 
that mentoring works so well, and that is it puts an adult into 
the life of the child as a resource, somebody to connect to.
    We have an opportunity, because we have developed really 
good assessment tools at different ages, and now we have 
assessment tools that can really be used at very early ages to 
identify some of the places where these kids probably will face 
some challenges. We will be working with HHS to talk about how 
we can use those assessment tools to better effect, to really 
gather some of that information early. It is said that teachers 
typically know after just a few days who the children are in 
their class who really have some educational deficits and some 
problems at home. We want to be able to take advantage of that 
information.
    So I would say that most of these programs here that we 
find to be extremely helpful address a multiple of these 
challenges that these kids have and really try to either 
connect them to the school, to the community or back to their 
family.
    Senator Feinstein. Start at what age?
    Mr. Flores. I think, quite frankly, we should looking at 
Head Start ages and on up. Why would we want to wait? So I 
think we are having those conversations already between the 
Administration for Children and Families in our office as to 
what kinds of assessment tools are there, what can we build, 
what kind of resources and volunteering can we bring to the 
table.
    Senator Feinstein. Dr. Arias?
    Ms. Arias. Senator Feinstein, that is an excellent 
observation and I thank you for raising that. As mentioned in 
the testimony, and you alluded to it, Peace Builders has been 
shown to be effective, both in changing the children and also 
the teacher's perception of the environment that those children 
are growing up in. It is a very interesting observation in that 
the other program that I mentioned, the resolving conflict 
creatively which is a K-8 program, also found significant 
effects. However, interestingly, the effects were not as great 
for the older children, suggesting that as early as possible 
that intervention--that is, before they actually get to that 
stage in seventh or eighth grade where they have already 
developed those patterns. So that early intervention is 
critical.
    We rely on school programs because teachers are amenable, 
teachers are interested in helping out in dealing with the 
issue of youth violence. However, we are also currently 
conducting some work looking to see the extent to which we can 
further improve the benefits that kids get from those programs 
in school by adding a community component and by adding also a 
family component. We are looking forward to that data being 
available soon to be able to say the extent to which a more 
holistic approach is going to be the way to go.
    Senator Feinstein. So if this bill does pass and we have 
the funds, in my view it would make sense, and I do not know if 
you agree, to target the monies toward troubled schools as 
young as possible with children and combine it with mentoring 
programs very early on. Would you agree with that?
    Ms. Arias. I would agree, and again focusing on the family 
and the broader community as a whole. I think the community has 
to also engage in and put into place procedures that are going 
to support what is being done in the school and what is being 
done at a family level.
    Senator Feinstein. Thank you. Ms. Hart?
    Ms. Hart. I would just like to follow on what my colleagues 
have said but approach it from a slightly different 
perspective. From a societal perspective, if you are looking at 
what are the long term benefits of those early investments, we 
are looking after deterring people potentially from a life of 
crime. If one invests later, for example, let us suppose you 
invest when somebody is 45 or 50 years with prevention 
programs, you may be only deterring them from 10, 20 years of 
crime. But if you are talking about a 15-year-old, you are 
talking about a very, very significant criminal career. So from 
a cost-benefit analysis is certainly seems to make sense to 
invest money, if you can, on people that are likely to have the 
longer criminal careers, and also to the extent you can have 
appropriate tools for trying to figure out which ones of the 
juveniles are the highest risk and most likely to go into that 
criminal pathway.
    Senator Feinstein. Thank you. Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Feinstein.
    Senator Santorum.
    Senator Santorum. Thank you, Mr. Chairman. I just would 
like to pick up on where Senator Feinstein was headed because I 
agree with her that that is a very key area, at least from the 
testimony that I listened to. Senator Feinstein did not like 
the term socialization. I will borrow Robert Putnam's term, 
social capital. I think that is what we are talking about, the 
connectedness that we have to each other. That is, obviously 
from your testimony, Ms. Arias, is what is missing. They are 
not connected.
    I think the remediation that Senator Feinstein is talking 
about in her legislation and some of the programs that you have 
defined here are good connecting kids to other healthy kids. 
Not just other groups, but healthy groups of kids, neighbors, 
faith communities, as well as maybe--this is where I am heading 
in the next direction--to their families. Because the other 
aspect that you talked about in your testimony is was that you 
have very low rates of delinquency when parents are engaged, 
when, obviously, the parents are not abusive, and then when 
parents are home when kids are home.
    So maybe another area, if you can comment, are there 
programs out there that have been effective? This is an area 
where Government tends to fear to tread, and that is somewhat 
directly getting involved in the family situation. But are 
there programs out there that have been effective in helping 
parents do a better job of parenting so we do not to do the 
remediation down the line outside of the home in the schools?
    Ms. Arias. There are some programs currently that, or there 
are some programs that we have looked at and supported that 
have been shown to be effective in doing that. Then there are 
some that actually we are expanding and looking at as well.
    So, for example, I mention home visitation programs that 
intervene very, very early on among high risk families have 
been shown to be effective in reducing child maltreatment for 
sure, and then down the line improving the quality of life for 
that family. We are also looking at programs currently that are 
looking at various levels of intervention, again looking at how 
it is that communities can support families in order to have 
them engage in those functional patterns of interaction that 
are necessary, including also schools in that intervention. So 
looking at different levels of dose, if you will, and see where 
it is that we can get the most benefit from.
    For the record, I can send additional information about 
those projects that we are currently looking at and some of the 
ones that we have evaluated more critically.
    Senator Santorum. I would like that information. Also if 
any of you have a component as to what, if any, of these 
programs have focused on communities of faith and whether there 
has been a faith-based intervention and the success of those 
vis-a-vis more traditional programs.
    Ms. Hart, I would like to focus on--you mentioned four 
things that do not work: the DARE program, boot camps, gun 
buybacks, and group therapy, and I suspect that there is 
testimony in here as to why they do not work. But you mentioned 
Project Safe Neighborhood as a program that does work. Can you 
explain why the programs you mentioned failed and why Project 
Safe Neighborhood is successful?
    Ms. Hart. Project Safe Neighborhoods is really more of an 
approach as opposed to a particular program, and the concept 
behind Project Safe Neighborhoods is to go in and analyze a 
local problem. Much of what Senator Feinstein mentioned about 
how out in California they especially have a problem with 
Bloods and Crips and gangs, you may be in another jurisdiction 
where you do not see that exact problem; it has not arisen yet. 
Project Safe Neighborhoods contemplates the idea that crime is 
different in different locations and you need to be able to 
analyze the crime at that particular location, see how it is 
changing over time and be able to respond appropriately to 
those particular dynamics that are causing the crime problem.
    Senator Santorum. And why these other programs have not 
worked, particularly the DARE program? That is a program as you 
travel around in schools you see quite a bit of.
    Ms. Hart. It is immensely popular. You see DARE license 
plates here in Pennsylvania even, and it is enormously popular. 
But there have been comprehensive evaluations of that and they 
have shown consistently that it does not work, and I would be 
very happy to provide them to you.
    Senator Santorum. Thank you.
    Finally, Mr. Flores, in reading your testimony it is 
actually a fairly good news story that you present in here on 
the reduction in youth violence. Is that a fair 
characterization of your testimony? And why do--summarize 
this--because you did not really get into that in your 
testimony, that there has been a fairly dramatic decline 
overall in youth violence in America.
    Mr. Flores. I think that the picture is a positive one 
overall, in spite of the fact that we have some very serious 
challenges. One of the things I would point out is that when we 
collect data, the data points out that there are some hot spots 
in different communities and that the crime, as I did testify 
orally about the fact that when we look at the numbers, even if 
we assume that each of those crimes is committed by a different 
kid, you are talking about one-third of 1 percent of kids 10 to 
17.
    I think that we are in a position as adults and as 
communities to really take charge of that. I do not think that 
we have lost control by any means. I do think that a lot of the 
interventions are working. Congress has really provided a 
tremendous amount of support for Boys and Girls Clubs, for 
instance. These clubs serve as an anchor across the country in 
community after community. They provide tremendous 
opportunities, not only for the kids, but as you so correctly 
point out, for the parents to engage as well, to have a place 
where they can come in and they can see their children assisted 
in everything from schoolwork, extracurricular activities and 
sports.
    So I do think that one of the major challenges though is 
the connection. How do we strengthen that connection? I think 
our kids are amazingly resilient, and I think that many of them 
when offered the opportunity really do seize upon it. I do 
think though that we are not always as competitive in some 
places as we ought to be for our children's affections in terms 
of really providing something that they are going to want to 
respond to, and I think we have some room for improvement 
there.
    But I think that we have got a number of programs, we have 
volunteers stepping forward, the President's call has been 
really extremely positive in bringing volunteers to the table. 
And then the First Lady's effort really has been remarkable in 
terms of providing some focus into ways that we can help kids 
across the board. We have talked about the nurse practitioner 
program. We have got mentoring programs that are being pushed 
by faith-based communities, and we got a lot that is going on 
now with the fatherhood initiative in terms of really 
challenging men to come back, be involved with their families 
and take the responsibility that they really appropriately bear 
and share with their spouse or the mother of that child.
    Senator Santorum. Thank you.
    Chairman Specter. Thank you very much, Senator Santorum.
    Senator Biden. Mr. Chairman, maybe I could make a brief 
opening statement now, because it relates to what both my 
colleagues have just said.
    Chairman Specter. Fine.

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. First of all, thank you very much.
    Thank you, Mr. Chairman, for refocusing on this issue. This 
is something you and I have worked on, and Senator Feinstein 
and Senator Santorum have for some time and trying to find 
out--one of the most difficult things I find in my years in 
Congress and the Senate is that we author a program and we get 
invested in it, and even if it does not work we stay with it. 
One of the things I have tried to do, and you have done, is 
notwithstanding what we thought at the front end, if it is not 
working we should discard it and we should move on and invest 
our money in the areas that have the best prospect for success.
    One of the things that--money will not solve this problem, 
but this problem cannot be solved without money. To me, looking 
at the numbers, which I have been doing the bulk of my adult 
life, is there is a--how can I say it--fighting crime and 
dealing with juvenile delinquency is a little bit like cutting 
grass. You can never spend less. I have never seen a single, 
solitary time where we spent less, the grass has not grown. It 
is like cutting your grass on Sunday and if you do not cut it 
for a week it looks okay. You do not cut it for two weeks, it 
looks a little ragged. Do not cut it for a month, it is a 
little jungle. That is how crime is.
    So there has got to be a correlation here, and I think the 
Chairman is trying to find out, is between programs that work 
but investing in those programs that work, and investing more 
in those programs that work, not less.
    Now one of the things for a long time--and I want to, by 
the way, point out, Mr. Chairman, Ms. Hart is a University of 
Delaware graduate. That is why she is so brilliant. And I want 
to publicly thank her for helping me so much on the DNA issue, 
and I want to thank all of you for your work.
    But let me say that certain things that your testimony, 
which I have seen and what little I have heard because I was 
late--I want to make it clear I told the Chairman I would be 
necessarily late. I knew I was going to have to be late. But 
there are a couple things we know. Senator Feinstein has been a 
leader in focusing on preschool and how we focus in the place 
where it is most impressive. But one of the things that we know 
about that is that those children who are in homes that are 
dysfunctional and there is violence, tend to be the children 
who are the children who are most at risk.
    So the Violence Against Women Act, which is, I admit, a pet 
of mine, I think is very, very important and I would like to 
talk to you at some point about the funding of that and the 
continuation of that, and the relationship if you--if there is 
none, I should know, between those efforts and getting at these 
kids early so they do not end up carrying the baggage that--you 
get at them indirectly. If the mother is no longer being beaten 
in front of their child then that takes away one of those 
things.
    There are only a couple things I have observed that we have 
in common with adult prisoners or prisoners there because they 
have committed violent acts. They cannot read and they were 
subject of or witnesses of abuse. The only two things I have 
found in all the studies I have read the last 23 years that 
show the only commonality. There are other things that you 
could--but that is most significant thing shared by most of the 
violent offenders.
    We also know that afterschool programs matter. The bulk of 
the crime of these kids is committed between the hours of 3:00 
and 6:00. You have got what, 5.7 million kids in that range or 
ages 12 to 15-years-old that do not have any supervision at 
all.
    The third I have noticed since the days I was a public 
defender is, those committing the most violent crimes are not 
age 18 to 21. They are ages 15 to 18. That is a gigantic 
change. And what we know about after arrest is unless there is 
supervision after arrest it does not matter. I do not know why 
we cannot figure this out, why this is so hard. We understand 
if you go in for a serious medical problem, you have the 
operation and there is no follow up with the doctor, you are 
not going to get healthy in almost all instances.
    What do we do in our system? Whether it is letting a person 
out of jail, or whether it is dealing with drug treatment? You 
are talking about drug treatment. You all have been involved 
with that. None of these programs work in 30 days. None of 
these programs work in 30 days. None, none, none, none, none, 
none, none, none. None. Yet we go through this little game. We 
have these 30-day programs. We are talking for heroin, you are 
talking a year, six months a year to a year for any effective 
program unless--I stand corrected. I am in the question period 
now. Anybody interrupt me if there is any program you know for 
heroin, methamphetamine that in fact has worked in less than 
six months you can show to me. Have any of you ever heard of 
any?
    Number two, we find that after they get out of even those 
programs, any program you know that works where there is not a 
follow-up, routine follow-up with these folks coming out of 
this treatment facilities? I have done this for the bulk of my 
adult life. I have not found one single one. Not one.
    And when you deal with juvenile delinquency certain things 
are precursors we know. We know if you are a truant, look out. 
Truancy is the first indication. Am I wrong about that? Is 
there any indication that is not the case? And yet what do we 
do with truancy? We had programs that worked. We had programs 
and we funded them that followed up on all truants immediately. 
In certain cities where those programs have been done, they 
work. That is the first precursor. That is the first little red 
flag that goes up beyond the kid sort of poking another kid in 
class.
    So my question for the panel is, that is there any way we 
are really going to get a handle on this unless we continue to 
impact on the violence witnessed in the home, have serious 
afterschool programs, and treatment programs that in fact have 
a duration that gives you a statistical possibility that 
recidivism will be reduced? That is my first question. Anyone.
    Mr. Flores. Senator, with respect to truancy, for example, 
we have not missed that. In fact for the very first time the 
Department of Education as well as the Department of Justice 
joined together to have really a national conference addressing 
that. That is a significant problem and one of the things that 
is great about the opportunity that is presented there is that 
the infrastructure to help solve that has only been bought and 
purchased. We have the schools, and one of the real challenges 
is finding a way to get those kids back into those seats.
    With respect to the issue of literacy, there is a 
tremendous amount of frustration if you are closed out of any 
world, and being illiterate does just that. On top of which, if 
you are a young student and you go to school and you are forced 
to sit in front of a group of people and you are asked 
questions that you could not answer because you could not read, 
at a certain point you just drop out. You do not want to be 
there.
    Lastly, we view truancy as a tremendous sign a something 
else going wrong in the home, especially when it is young 
children. A five-year-old is not truant in the sense. They are 
not in school because their parents or their caregiver is not 
getting them to school.
    Senator Biden. Why are we cutting the programs? Why are we 
cutting the money? I mean, I know it is above your pay grade 
and mine, but do you think it makes sense for us to cut out the 
money? We have cut Federal funding for--generically, for local 
law enforcement, local prevention monies. We have cut it by, I 
do not know what, 60 percent, 70 percent? Why are we doing 
that?
    Let me put it another way, you cannot tell me why, I know. 
Does it makes sense to cut these problems that make available 
monies for communities to work on truancy problems? That is 
what we are doing.
    Ms. Arias. The support definitely is needed. I think what 
is also important is that we have learned from the work that we 
have done in the field generally that it has to be a more 
comprehensive approach than we have done to date. So that 
rather than developing a program here, a program there, whether 
it is school-based, community-based, and implementing those, 
that there has to be a multidimensional, multifactorial effort 
so that a community is encouraged to look at the totality of 
things that do influence the development of that child. Family 
being one. School being another. Their peers, et cetera.
    The other way that we like to think about it and one of the 
reasons why we are continuing to go in this direction is, as 
you mentioned, changes that are created in a child in school 
have to be supported in a community. We cannot expect, for 
example, a third-grader to change and then be responsible for 
maintaining that change, given all the developmental changes 
that they are undergoing.
    The family violence issue is a very significant one, and 
the work that we have done in the prevention of domestic 
violence in the home, we do not perceive it only as then 
dealing with domestic violence but dealing with that next 
generation of violent youth and then violent adults. So that we 
see as an investment both in terms of what is happening to 
those women at the time, but also what those children then grow 
up to do to other women or to each other. So the relationship 
is not only there in terms of youth violence, but we know that 
those children are at high risk for suicide and other forms of 
violence, so it is an investment in, again, that early 
intervention. But again, that comprehensive approach is 
critical so that no kid who is ever touched by a program is 
going to fall through the cracks and then go back to where they 
were before.
    Senator Biden. We have a fairly comprehensive program in 
some of these areas--my time is up--and we are having trouble 
keeping the funding going for these comprehensive programs. 
That old expression, in the long run we will all be dead. There 
is a lot of stuff we can do now. The Boston program is an 
example. It worked incredibly well. The community decided on a 
comprehensive--how to do it and then we stopped funding. So 
anyway, I will get back to that. My time is up.
    Chairman Specter. Thank you very much, Senator Biden. Thank 
you for coming today to Philadelphia for these hearings. Just 
one brief comment on violence in the home. It ought to be noted 
that Senator Biden has taken the national lead on violence 
against women, which is a major source of that particular 
issue, and I have been privileged to be his co-sponsor; 
something that I have seen over the years since my first days 
as an assistant district attorney many, many years ago.
    Thank you for coming, Ms. Hart, Ms. Arias, Mr. Flores. This 
is just the beginning. We are going to be calling on you, Ms. 
Hart, from the National Institute of Justice to give us a 
comprehensive evaluation of what works and what does not work 
on the national scene. The fact is that there are sometimes 
three major departments which handle programs which have the 
same name and same purpose. The Judiciary Committee is going to 
be taking a very active role this year on our reauthorization 
function to evaluate the programs which work and which do not 
work, and we are going to be calling upon you from the National 
Institute of Justice to provide that information to us.
    Mr. Flores, the same goes for you from the Office of 
Juvenile Justice and Delinquency Prevention. You are right at 
the center of the juvenile crime issue, and you have studies on 
what works and what does not work, and we are going to want the 
specifics. This is going to be done at the staff level, but 
this is just the beginning. We cannot even tabulate how much 
money the Federal Government is spending, although we have been 
looking at it for several months. We have tabulated that it is 
$160 million for Pennsylvania. We are going to ask you to do 
double duty, Ms. Hart, on Pennsylvania because of your 
background here.
    Ms. Arias, when you talk to Dr. Gerberding, tell her her $5 
billion appropriation for CDC is secure, providing we do 
something on mental health as it applies to juvenile crime, and 
maybe even a little earmark for something in this city which 
has such an acute problem.
    So this hearing has been in process now for many months 
working out the schedules of the Senators and working out the 
schedules of the witnesses, but I repeat, this is just a start 
to find out what works and what does not work and use the money 
we are now spending effectively, and then to take up the issue 
of additional funding where warranted. So thank you very much.
    We will take a brief recess while the second panel is 
seated.
    [Recess.]
    Chairman Specter. The hearing will resume. We will begin 
with the United States Attorney for the Eastern District of 
Pennsylvania, the Honorable Patrick Meehan.
    Mr. Meehan comes to the position with a very distinguished 
record in government and in law enforcement, having been the 
district attorney of Delaware County and having handled some of 
the highest profile cases in the past decade in the United 
States, and recently led his office to a very, very important 
jury verdict in a case of political corruption in the city of 
Philadelphia. He has been active in government, having managed 
the successful reelection campaigns for Senator Santorum in 
1994 after having done the same thing for me in 1992.
    Senator Biden. Are you available?
    Chairman Specter. He is susceptible for the draft, Senator 
Biden.
    But his second most important achievement is as a hockey 
referee; a really tough job, and his principal achievement is 
the father of two beautiful twin boys and a third beautiful boy 
all attributable to his beautiful wife.
    Mr. Meehan, the floor is yours.

  STATEMENT OF PATRICK MEEHAN, U.S. ATTORNEY FOR THE EASTERN 
      DISTRICT OF PENNSYLVANIA, PHILADELPHIA, PENNSYLVANIA

    Mr. Meehan. Good morning, Senator, and thank you for that 
kind introduction. My wife will appreciate that. I want to 
thank you for the opportunity to testify about youth violence 
on behalf of U.S. Attorneys from around the country and about 
our offices' efforts to combat juvenile violence in a nine-
county area which comprises the Eastern District of 
Pennsylvania. I understand the Committee is looking at violence 
committed by offenders between the ages of 15 and 24, and also 
the crimes committed against those young people. We have, as 
all the panelists, submitted significant written testimony so I 
will try to focus on the salient points of that.
    In defining the problem, we are keenly aware of the problem 
of juvenile violence and we understand the urgency of stopping 
the violence committed by youth and the violence committed 
against them. According to statistics compiled by the 
Pennsylvania Department of Education, across Pennsylvania, and 
I suspect this is the same across the country, we are 
continuing to see a larger number of violence incidents 
reported by school officials. For just the 2002-2003 school 
year, the number of incidents involving a weapon at a school 
has grown from 859 to 932 in our city of Philadelphia, and 
statewide we continue to see about 41 incidents a year 
involving firearms in the schools.
    What should not be lost in these statistics is the harsh 
impact that firearm violence has on families and communities. 
Violence tears at the very fabric of Philadelphia's 
neighborhoods, and as the neighborhoods go, so goes the city. 
The death of 10-year-old Faheem Thomas-Childs on the Pierce 
Elementary School playground in North Philadelphia brought that 
reality home to many in our region. On February 14, 2002 at 
approximately 9:00 a.m., two rival gangs started shooting at 
each other, firing more than 60 rounds outside a school 
playground. One bullet found Faheem Thomas-Childs, and his 
tragic death pierced the spirit of an entire city.
    Let me tell you what our office is trying to do to try to 
prevent youth violence. As the Committee knows, prosecution of 
juvenile offenders is done almost exclusively by local 
prosecutors. Federal prosecutors are constrained by Federal 
jurisdiction limits and are focused on adult offenders. But 
that is not to say that Federal prosecution efforts are 
divorced from the problem of violence committed by youth. Our 
office is engaged in a robust effort to attack firearms 
violence, and to the extent that this coincides with youth 
crime, we are involved. You have heard many comments about 
Project Safe Neighborhoods, the chief vehicle we use to combat 
firearms violence in the nine-county Eastern District of 
Pennsylvania. Our district includes Philadelphia, but also 
includes cities like Chester, Coatesville, Reading, Allentown, 
Lancaster, all of which have experienced gun violence.
    PSN, or Safe Neighborhoods, recognizes that violent 
criminal organizations--I saw criminal organizations as Senator 
Feinstein had noticed, are the most disruptive force in many 
neighborhoods, and the responses to these criminal 
organizations among various law enforcement agencies, both 
Federal and State, need to be coordinated. We use Project Safe 
Neighborhoods initiative to coordinate diverse law enforcement 
resources around a strategic plan that is defined by those who 
work in each district. The priorities are to dismantle violent 
organizations first. Second, to stop illegal gun traffickers. 
And third, to enforce the law against prohibited persons 
possessing firearms.
    But there are interlocking components of Project Safe 
Neighborhood initiative which our office has coordinated to 
combat firearms violence in the district. As Sarah Hart said, 
we strive to match shorter term law enforcement efforts with 
longer term community intervention and prevention programs to 
leverage our impact in the schools and with our youth in the 
neighborhoods, pay particular to Project Sentry and the Youth 
Violence Reduction Project. Project Sentry is designed to bring 
both Federal, State and local law enforcement to prosecute and 
supervise juveniles who violate Federal and State firearms 
laws, to prosecute the adults who illegally provide firearms to 
juveniles, and to promote safety throughout the community.
    With your help, we had Federal monies. We gave $700,000 of 
those funds from our Project Sentry program and contributed it 
to the city's youth violence reduction program. This program is 
an intense supervision program designed to prevent the 
offenders from slipping back into criminal behavior. Once 
juvenile and law enforcement officials identify violent 
juvenile offenders, local probation officers provide constant 
monitoring of the offenders. Educational and vocational 
training are made available to make sure that they do not 
commit new offenses and they become productive members of the 
community. YVRP is a model program. It targets those 15- to 24-
year-olds most likely to kill or to be killed, with intensive 
supervision. One element is Archie Laycock's Don't Fall Down in 
the Hood. He worked with 14- to 18-year-olds who are on 
probation because they have been in possession of a firearm.
    Similar though less intensive programs, Porchlight 
Programs, are operating in Delaware, Berks, Lehigh and 
Lancaster Counties.
    Chairman Specter. Can you summarize and your full statement 
will be made a part of the record?
    Mr. Meehan. Yes, Senator.
    The conclusion is that by working together, focusing 
prevention with intensive law enforcement efforts collectively, 
as we wrap around the prevention efforts, we can have an impact 
on violence both in our neighborhoods and in the homes to make 
a difference. But that key is the collaboration and 
communication.
    [The prepared statement of Mr. Meehan appears as a 
submission for the record.]
    Chairman Specter. Thank you very much. We are on a very 
close time schedule, regrettably, and we want to save as much 
time as we can for questions and answers.
    Our next witness is the distinguished Commissioner of 
Police of the city of Philadelphia, Sylvester Johnson, who has 
been in this position since January 4, 2002. From 1998 until 
his appointment as Commissioner, he was deputy commissioner for 
operations. He has a long list of awards, including the award 
of valor, received the director's award from the U.S. 
Department of Justice executive office for the Weed and Seed 
Program. He attended the senior management institute for police 
at Harvard and the FBI National Executive Institute, and he has 
been on the police force since 1964, Commissioner Johnson, 
which makes you only five years junior to me on service in 
Philadelphia law enforcement. Draw a murmur from the crowd. 
Thank you for--I hate to talk about dates. It is too 
reminiscent of age. But thank you for the good work you are 
doing and for joining us here today, and we look forward to 
your testimony.

  STATEMENT OF SYLVESTER JOHNSON, COMMISSIONER, PHILADELPHIA 
         POLICE DEPARTMENT, PHILADELPHIA, PENNSYLVANIA

    Commissioner Johnson. Thank you. It is an honor to be here 
and I appreciate being here with the people that are on the 
panel. My comments are not going to be very, very long and I 
will try to keep it as brief as I possibly can. I thank the 
Committee for traveling to Philadelphia for this important 
hearing and I hope the testimony you hear today will provide 
the Committee valuable insight into how youth and gang violence 
can be reduced in cities across the country.
    Violent crime is an assault on our communities. Violent 
crime committed by juveniles is especially disturbing. Watching 
our children gunned down in the streets, bringing knives and 
guns to school, stealing, robbing, drug dealing can lead to a 
sense of hopelessness for the future of our community. There 
are many factors that lead to juvenile crime and violence. It 
is fueled by poverty, drug dealing, broken families, and a 
popular culture that glamorizes narcotics and gunplay.
    We must, therefore, effectively and efficiently use our 
limited resources to continue successful initiatives, and 
develop new programs to reverse this trend. The city as a whole 
is deeply invested in this problem. Not only law enforcement 
and the courts but community organizations, faith-based groups, 
health care providers, everyone with an interest in keeping our 
children and our streets safe.
    Youth homicides in Philadelphia for 2005 have seen a tragic 
increase due in part to gun violence. From January 1, 2005 to 
May 31, 2005 there was a total of 63 homicides for youth 24 
years old and under. For that same period in 2004 there were a 
total of 41 homicides by youth 24 years old and under. From 
January 1, 2005 to June 7, 2005 the city of Philadelphia has 
had a total of 340 shooting victims of youth 24 years old and 
younger.
    The Philadelphia police department considers youth violence 
a serious threat to the future and quality of life for our 
young people. Philosophically, we believe that arrests alone 
will not solve the problem of youth violence. As I have said 
repeatedly, we cannot arrest our way out of this problem. Only 
a holistic approach will decrease the incidents of youth 
violence in the city and around the country. The police 
department has in the past and will continue to partner with 
other city agencies, religious and community groups and 
organizations, State and local law enforcement agencies, 
business and private organizations dedicated to working with 
our youth. The goal of this partnership and collaboration is to 
identify at-risk youth, intervene in the most effective way 
with a goal of decreasing youth violence.
    As a police department we handle youth violence in the same 
way that we handle adult violence, intervene immediately and 
work diligently to protect against retaliation and ongoing 
disputes. We believe strongly that the key to success in 
preventing future violence is our ability to analyze incidents, 
gather intelligence and make the necessary connection. A strong 
police presence on our streets in our communities has proven 
successful as a deterrent to crime, as a strong role model to 
our youth. In the past year we have developed two new 
strategies that we expect will make a significant difference.
    The Youth Violence Reduction Project is a multiagency 
effort aimed at reducing youth homicides by focusing on youth 
seven to 24 who are most at risk to kill or be killed. The 
Youth Violence Reduction Project operates in three police 
districts, 24th police district begun in June 1999, 25th began 
in two phases, southern section in January 2000, and full 
district by October 2000. The 12th district began August 2002. 
Since 1999, the Youth Violence Reduction Program has 1,440 
youth partners. The majority of them, 90 percent are male and 
89 percent are Afro-Americans or Hispanic. The median age is 
17. Of these youth partners, 13 have died, 10 by homicides, two 
by suicide and one by auto accident, and seven have been 
arrested for murder.
    The Youth Violence Reduction Program currently costs 
approximately $3,594,000 a year including $929,000 in city 
funds and in-kind services. We estimate the cost expansion to 
an additional police district amounts to about $1,546,000 to 
pay for more intensive police, probation and parole 
supervisors, and street workers to deliver positive support, 
additional prosecutorial and court expense, data monitoring, 
job training and other costs. With economy of scale, we believe 
that Youth Violence Reduction Program could be expanded to 
three high risk districts for a total additional cost of less 
than $4,574,000 annually.
    We are grateful for the Federal, State, local and private 
support that has allowed us to establish and sustain this 
initiative at its current level. We hope that the success 
demonstrated from these initiatives will justify additional 
funds.
    In conclusion, youth violence in American cities remains an 
extremely persistent problem. There has been considerable 
research in recent years of how to tackle it. A 2001 Surgeon 
General report on youth violence noted that the key to 
preventing a great deal of violence is understanding where and 
when it occurs, demonstrating what causes it, and 
scientifically demonstrating which of many strategies for 
prevention and intervening are truly effective.
    If given a choice, most law enforcement officials would 
choose successful prevention or early intervention programs 
over arrest and prosecution. To that end, the Philadelphia 
police department works to foster programs that emphasize 
prevention, DARE, GREAT, Explorers Youth, Heads Up, Police 
Athletic League. We are closely monitoring the results of all 
our initiatives, continually emphasizing accountability for 
performance and adjusting our approach as the need demands as 
we are keeping our eyes on the ultimate goal of saving lives.
    Thank you very much for your time today. Thank you very 
much for your invitation to be here.
    [The prepared statement of Commissioner Johnson appears as 
a submission for the record.]
    Chairman Specter. Thank you very much, Commissioner 
Johnson. Thank you for your testimony.
    Senator Santorum, do you have any closing comments? I know 
you have a plane to Pittsburgh.
    Senator Santorum. I have to head to Pittsburgh. I 
appreciate your having this hearing and I thank my colleagues 
for coming. I am going to take the testimony with me and I will 
read it on the plane. Thank you all very much. Appreciate it.
    Chairman Specter. Thank you very much for joining us, Rick. 
Appreciate it.
    Our next witness is Mr. James Kane, executive director of 
the State of Delaware's Criminal Justice Council where he has 
served since 1996. He has a very distinguished record in 
government work in Delaware including the Governor's Advisory 
Commission on Youth, the Governor's Council on Alcohol, Drug 
Abuse and Mental Health, and the Governor's Safe Streets 
Committee. He served as president of the National Criminal 
Justice Association from 2001 through 2003 and has had a number 
of important publications. We thank Senator Biden for his 
recommendation of Executive Director Kane and we look forward 
your testimony, Mr. Kane.

STATEMENT OF JAMES KANE, EXECUTIVE DIRECTOR, DELAWARE CRIMINAL 
             JUSTICE COUNCIL, WILMINGTON, DELAWARE

    Mr. Kane. Thank you very much for allowing me to testify. 
My parents are originally from Philadelphia. It is nice to come 
home. My mom went to Kensington and my dad went to West 
Catholic in LaSalle.
    At the Criminal Justice Council we tend to look at the 
criminal justice system as a continuum of events involving 
clients as they flow through the system. The council began 
looking at the characteristics of convicted criminals 
approximately 20 years ago. We have reviewed social and 
economic demographics of violent criminals. We have looked at 
the same criminals as juvenile delinquents, and we have looked 
at these same delinquents as abused children prior to their 
involvement in the criminal justice system.
    Over the years, we have become very adroit at arresting, 
prosecuting and convicting serious violent offenders. One of 
the few things that we know for certain is that a two-time 
violent felon has an excellent chance, in our State about an 80 
percent change of being convicted of another violent felony. We 
have concentrated most of our efforts in the law enforcement 
area on serious predators who we know are difficult, if not 
impossible, to rehabilitate. We have concentrated on these 
individuals with the assistance of the United States Department 
of Justice through crime bill money. We have usually been able 
to reduce crime in whatever geographic area that we maximize 
our law enforcement effort. We have been less successful in the 
area of rehabilitation.
    In the last several years, the Criminal Justice Council 
planners in Delaware have conducted some landmark research on 
the demographics of serious violent adult and juvenile 
offenders, and social and economic conditions that produce 
these offenders. Obvious to the most casual observer, but it 
still is vital to continue to indicate that single female head 
of households, poverty, high school dropouts, extensive drug 
and alcohol abuse, terrible housing, and a general condition of 
socioeconomic hopelessness tend to produce our worst violent 
criminals. In selected grids within the city of Wilmington, and 
Delaware as a whole, we can probably predict which 
neighborhoods will produce what amount of inmates for our 
correctional facilities.
    Until we can develop some type of formula that provides 
hope for our young people in a comprehensive fashion we will 
continue to produce criminals that employ large numbers of law 
enforcement officers, defense attorney, prosecutors and court 
personnel and correctional personnel. Earlier there was some 
discussion about the cost of inmates. In Delaware it is about 
$30,000 an inmate and we have got about 6,500 in prison and 
20,000 on probation. We are already suffering in Delaware from 
a huge expansion of our correctional facilities. We cannot hire 
enough guards to staff the prisons because we cannot pay them 
enough and it is not the greatest kind of work. The cost for 
these inmates is becoming astronomical.
    Programs that we tend to know that do not work are one-shot 
events, or events that do not impact the child's life in a long 
term fashion. Over the years we have paid for countless 
speakers who have, in spite of their environment, made it in 
the world. They would come in, conduct a one-day seminar, 
charge us $5,000 and go away, and the young people go back to 
the same neighborhood where they came from. We have invested 
large amounts of money for law enforcement education in schools 
on the evils of drugs and crime. And we have funded well-
intentioned programs that work on one aspect of the child's 
life. Examples could be child abuse, tutoring, cultural 
development.
    The success that we have had in working with youth has been 
in the area of providing comprehensive services to that youth. 
Where we have funded it involved tutoring, cultural 
development, value development, recreational activities, and 
basically supply a family environment outside of the home. We 
have had some success in increasing the educational levels of 
these youth. These programs have included Boys and Girls Clubs, 
Police Athletic Leagues, and other community centers that 
provide this comprehensive environment.
    Still these programs are scattered in nature. We have 
provided these programs in at-risk neighborhoods to at-risk 
children but we still do not capture the very, very high-risk 
individual who may become violent. Our studies indicate that 80 
percent of the shooters-shootees in the city of Wilmington are 
African-American males between the ages of 14 and 24. If you 
look at the criminal justice system and criminals as a pyramid, 
at the top of the pyramid are two-time violent felons. The pool 
of individuals at the bottom of the pyramid tend to be poor 
African-American male children who do not have the means to 
make it in society.
    Recently we developed a value-based education program that 
will provide a comprehensive school for African-American boys 
in the city of Wilmington. After extensive bidding we 
contracted to a concept called the Nativity School. They 
operate about six of these in the country. They have agreed to 
take 25 African-American male children from poor neighborhoods 
grades four and five. The program operates from 7:00 a.m. to 
8:00 p.m. in the evening and children are with school personnel 
all day on Saturdays. They leave for a month in the summer to 
different colleges and live in a dorm. The program has worked 
in other areas of the Northeast and it provides disadvantaged 
African-American males with an opportunity for success. They 
just sent me their first newsletter in Latin. I could barely 
read it, but I was an alter boy so I had a shot at it.
    If I knew the answer on how to reduce the current problem I 
would probably be a million-dollar consultant. I do know that 
the only way to change the behavior of young people before they 
become violent in the criminal justice system is to provide 
some form of comprehensive environment similar to that of a 
high-functioning family.
    In the past, the crime bill provided the States with a 
balanced funding approach to criminal justice so that we could 
create innovations for different components of the criminal 
justice system. Examples of our innovation have included 
projects funded under the JJDP Act, the Juvenile Justice and 
Delinquency Prevention Act. This act literally removed 
thousands of abused and neglected children from the criminal 
justice system. The crime bill created many innovations in the 
arena of speedy processing that otherwise would not have been 
initiated. Also community policing initiatives have made 
countless neighborhoods safer around the country and definitely 
in Delaware.
    I thank you for your time and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Kane appears as a submission 
for the record.]
    Chairman Specter. Thank you very much, Mr. Kane.
    Our next witness is the Chief Executive Officer of the 
School District of Philadelphia, Mr. Paul Vallas, who has been 
in that position since July of 2002, and his tenure has been 
marked by very, very substantial improvements in the school 
district. He previously had served as CEO of the Chicago public 
schools from 1995 to 2001 and was the budget director for the 
city of Chicago, but also the revenue director.
    I can personally attest to his financial skills because he 
and Ben Schmidt came to the Appropriations Subcommittee on 
Education a few years ago and told us about a $20 million 
shortfall. To make a very long story very short, the funding 
was directed through the State to distressed schools. And 
somehow he returned the next year and said he needed $20 
million more. And he came back the year after that and you will 
be surprised to hear what he said that year. It has practically 
become an entitlement, but it has been put to very good use 
with the summer school program last year being funded by that 
Federal appropriation, and I think being a significant factor 
in helping on the crime issue, the juvenile crime issue, 
although it seems to be very, very difficult.
    I give him further credit in a conversation we had months 
ago for making suggestions about what programs had worked in 
other jurisdictions, and being an innovator and suggesting 
these hearings here today.
    Beyond that, he was a candidate for Governor of Illinois a 
few years back. I forget on which ticket and I forget what the 
result was, but he may want to testify about it.
    [Laughter.]
    Chairman Specter. The floor is yours, Superintendent 
Vallas.

STATEMENT OF PAUL VALLAS, SUPERINTENDENT, PHILADELPHIA SCHOOLS, 
                   PHILADELPHIA, PENNSYLVANIA

    Mr. Vallas. Thank you so much. I am going to do something 
unprecedented by me. I tend to be a little too talkative. I am 
going to use my five minutes to refer to a binder that I have 
provided to the Senators and to staff. What I have attempted to 
do, this is my legislative staff experience coming out, is to 
provide background material, reference material that I think 
will prove to be very helpful to the Committee and to their 
staff.
    Tab one lays out my testimony which I am going to defer 
commenting on.
    Tab two lays out some relevant statistics about school 
safety, specifically in the city of Philadelphia.
    Tab three is a discussion of a Project Peace Initiative 
which is an initiative designed to get students involved in 
peer mediation and resolving problems through non-conflict 
resolutions.
    Tab four is background material on the Philadelphia youth 
violence prevention partnership which all of the previous 
speakers have made reference to. Let me point out that where 
the partnership has been implemented it has had tangible, 
substantive success. It is certainly a model worth expanding to 
other districts in Philadelphia.
    Tab five, relevant articles of interest, again in support 
of the Philadelphia youth violence prevention initiative.
    Tab six and seven is the Philadelphia juvenile justice 
curriculum, a curriculum that is being integrated into the 
school district at the middle grades, and it is designed to 
teach the young children not only conflict resolution but also 
values, character, and to teach them about the consequences of 
committing serious offenses. It is also supplemented by a 
comprehensive anti-violence initiative initiated by the 
district attorney's office. I am sorry, the district attorney's 
office is the author of the juvenile justice curriculum. The 
U.S. Attorney's Office is the author of the anti-violence 
initiative that is designed to teach young people the 
consequences of the use of firearms.
    Tab eight is some background material on the Boston 
miracle, the Boston Operation Nightlight, which was a 
significant effort at reducing youth violence in Boston, had 
great success and is considered to be a national model.
    Tab nine is background material on the Chicago community 
youth program. Chicago has had a significant reduction in youth 
violence in the last couple years due in large part to this 
initiative. So background material, summary materials well 
worth referencing.
    Then finally, Tab 10, which is not available yet, only 
because we do not want to violate copyright laws, we are 
providing the commission with an excerpt from Malcolm 
Gladwell's book, The Tipping Point, the chapter on broken 
windows that talks about the New York miracle.
    So our objective here has been to provide background 
material in a very concise, specific way that can be helpful to 
the Committee and that can also be helpful, obviously, to the 
Committee staff; material I am sure the Committee staff has 
been able to access on their own.
    Before I finish my statement I would like to offer a few 
brief policy principles that I feel are evident or emerge from 
all of these models, from the New York experience, to the 
Boston experience, to the Chicago experience, and even the 
Philadelphia experience through the Philadelphia Youth Violence 
Prevention Partnership.
    One is, to be successful, violence prevention must be 
coordinated. So obviously we support programs and equipment 
that will allow for greater coordination among local agencies 
in tracking and dealing with chronically and habitually 
disruptive students, as well as habitually disruptive youth. 
According to the public-private ventures report, one of the key 
successes to the YVRP initiative and the key successes to 
initiatives that have been undertaken in Boston and Chicago and 
elsewhere have been the coordination among many of the 
participating groups and agencies. And of course, this 
coordination can be further enhanced through technology.
    Second is that students at risk to engage in violent acts 
benefit from specialized attention. If you look at the Chicago 
initiative, they have an extensive early assessment program 
designed to look at the health care and educational needs of 
students and then to literally develop what I would 
characterize as anti-violence IEPs designed to intervene before 
a child has gone down the path of violence. But early 
intervention, early diagnosis, focusing on the problem as 
really a public health problem are ways that we can overcome 
these tragic incidents and help us address the problems and 
challenges that we face.
    Third is the need to provide young people with constructive 
alternatives to violence. Summer school and afterschool 
programs such as those that have been provided in Philadelphia, 
in large part through the good offices of Senator Specter and 
Senator Santorum, providing for youth job programs, providing 
children with extracurricular activities to get them off the 
street, values character education. In the Philadelphia public 
schools partnering with faith-based institutions, we have a 
youth net program, a program that is designed to use faith-
based institutions to provide afterschool and extracurricular 
character education and intervention services. All these things 
can make a big difference.
    But again, I will refer you, with your permission, to the 
reference material we provided in the book, and again in Tab 
one it lays out my opening comments where I not only discuss 
some of these issues in general but I also identify a number of 
what I consider to be best practices that we are adopting in 
the school district of Philadelphia. Thank you, sir.
    [The prepared statement of Mr. Vallas appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Superintendent 
Vallas.
    We now turn to the distinguished Assistant Chief of Police 
of Pittsburgh, Ms. Regina McDonald, who comes to that position 
after a very distinguished academic and professional career. Of 
particular interest to the Committee is the portion of her 
testimony relating to the narcotic impact squads and putting 
uniformed officers into areas which experience a surge in 
violent activity.
    We thank you for coming across the State, Chief McDonald, 
and look forward to your testimony.

   STATEMENT OF REGINA MCDONALD, ASSISTANT CHIEF, PITTSBURGH 
           BUREAU OF POLICE, PITTSBURGH, PENNSYLVANIA

    Chief McDonald. Thank you, Senator.
    The Pittsburgh Police Bureau's philosophy of policing 
incidents of youth violence involves a two-pronged approach. 
First we try to be proactive in preventing such incidents from 
occurring. And second, we aggressively investigate and 
prosecute incidents when they do occur.
    Our proactive approach includes a close working 
relationship with the Pittsburgh public schools and their 
school police, Allegheny County Juvenile Court, the Allegheny 
County District Attorney's Office, and the ATF Violent Crime 
Impact Team. When we see a spike in incidents or get reliable 
information of possible violence in a specific area of the 
city, we detail our Narcotics Impact Squads to the area and our 
Uniform Ten Car Officers. We've found this to be very effective 
in squashing violence as it occurs.
    After the Impact Squads and Ten Cars leave the area, Zone 
Officers are responsible for the maintenance. Several areas of 
the city are being targeted by the ATF Violent Crime Impact 
Team with ATF agents and city officers working together to get 
guns and violent offenders off the streets. Both adults and 
juveniles have been targeted. This has been a very effective 
project.
    We are also in the process of preparing a detailed 
description of gang activity in the city. Although gang 
activity has not reached the magnitude we see in other major 
cities, we are seeing a re-emergence of gangs in the city. We 
are working closely with Federal and State law enforcement 
agencies and the Allegheny County Juvenile Probation in 
identifying gangs, members, and associates within the city of 
Pittsburgh. Once we get a picture of gang activity in the city 
we are planning to work closely with U.S. Attorney's Office in 
prosecuting those gangs.
    With recent reductions in our police force--we have lost 
100 officers, we are now at a staffing level of 900--we were 
forced to discontinue the Community-Oriented Policing Program. 
This program included 86 Community-Oriented Police Officers 
working out of each of the five police zones in the city. We 
currently have four Community Problem-Solving Officers assigned 
to each zone. Zone Commanders use these officers to target 
specific problems, including acts of violence around schools 
and illegal drug activity. We continue to work closely with 
community groups and organizations throughout the city. Zone 
Commanders meet monthly with community leaders at their Public 
Safety Zone Council Meetings. Crime Prevention/Crime Analyst 
Officers also work closely with community-based organizations, 
and zone officers attend community meetings held in their 
patrol areas.
    As I have mentioned, we have been working closely with 
Allegheny County Juvenile Probation. Probation Officers 
participate in ride-alongs with Zone Officers, and our officers 
and Intel Squad Detectives assist Juvenile Probation with their 
Warrant Squad when they conduct the round-ups of juveniles who 
are wanted on outstanding arrest warrants. This relationship 
has been very beneficial to both agencies.
    We have found that these proactive approaches have been 
very effective and they have enhanced our ability to prevent 
and reduce the spread of juvenile violence as well as increase 
our ability to arrest and convict violent offenders. We work 
closely with the Allegheny County District Attorney's Office in 
preparation and prosecution of those cases. Our close working 
relationship with Allegheny County Juvenile Probation enables 
us to get repeat offenders off the street as soon as possible.
    Our major concern today is with the prevalence of firearms 
and the increasing number of juveniles carrying and using 
firearms. In the year 2000 our officers made 269 VUFA arrests. 
That increased to 364 in 2001, 401 in 2002, 472 in 2003, and to 
an all-time high of 616 in 2004. For the first five months of 
2005, we have made 231 arrests, which is in line with last 
year's figures. In the year 2004, we had 47 individuals in the 
age group from zero to 16 years of age arrested for VUFA, with 
the age group 17 to 24 years of age accounting for 363 arrests. 
The figures for these age groups for the first five months of 
this year include 12 and 143 arrests, respectively. We need to 
do more to keep these violent offenders off the street. Strict 
enforcement of all firearms statutes should include juveniles 
as well as adults.
    In closing, I would like to thank Senator Specter for 
inviting us to this committee meeting. I would also like to 
mention that with the discussion of previous panel members you 
have concentrated on what funding sources have been beneficial 
to various agencies, and I would like to say that the Project 
Safe Neighborhood grant program is very beneficial to us, as 
well as Weed and Seed and the Local Law Enforcement Grant 
Program.
    [The prepared statement of Chief McDonald appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Chief McDonald for 
coming to testify. I appreciate your references to a number of 
the programs which there have been Federal funding on. We have 
been very solicitous of Pittsburgh, Allegheny County and the 
tremendous economic problems with the problems in the steel 
industry and coal. One of the programs which we coordinated 
with Mayor Murphy of specific assistance was when there were 
witnesses who were being targeted by gangs we came in with a 
special appropriation to be of assistance on witness 
protection. It is a major concern to know about your having 
terminated some 100 police officers. We know the problems that 
Pittsburgh is having financially; well known.
    To what extent has that reduction in your force impacted on 
the problem of juvenile violence?
    Chief McDonald. Amazingly enough, with the reduction from 
1,000 to 900 officers we have still seen a decrease in crime. 
It is a testament to the abilities and hard-working efforts of 
our police officers. So with the loss of those 100 officers we 
have not seen anything--no one dropped the ball and in fact our 
officers are performing outstandingly well.
    Chairman Specter. That is a good response. We are going to 
take a very close look at your success rate. Maybe we can cut 
some--I would not say that coming to Commissioner Johnson as to 
his situation in this city. Mr. Johnson, I note your testimony 
from January 1, 2005 to June 7 of this year, a total of 340 
shooting victims of youth age 24 and younger, and this is in 
the same period of time roughly where the number of homicides 
went to 63 in the first five months of the year compared to 41 
last year. But the 63 homicides are vastly under the 340 
shooting victims, which is obviously very distressing.
    Your program on youth violence reduction partnership which 
is in effect in some three police districts has had a very 
salutary good effect. How much additional funding do you need 
to carry that citywide to try to have some impact on this 
juvenile crime problem?
    Commissioner Johnson. I think what I testified before is 
approximately, if we put it into another district it would be 
approximately anywhere from $1.5 million per district. To give 
you a little more statistics, when we put it in the 24th police 
district in 1999, murders in the district among youth from age 
seven to 24 declined by 62 percent. That went from 11 in 1998 
to just 4.2. In the 25th district from 2000 they declined 52 
percent, and in the 26th district they declined by something 
like 32 percent.
    Chairman Specter. What percentage, Commissioner, is that of 
the whole city? Three districts represents what percentage of 
the city?
    Commissioner Johnson. We have 23 police districts so when 
you are talking about--
    Chairman Specter. Okay, I can figure that out then if they 
are all roughly equal in size. What I would like you to do is 
to tell the Committee what kind of funding you would need to 
put that program in effect on a citywide basis. That is what I 
would like you to do. But I would like you to submit it in 
writing because of the limited time we have here today.
    Superintendent Vallas, thank you for the big book. We are 
going to be studying it and following up with you on some 
detail. From our prior conversations you have suggested that 
there are some areas where, some jurisdictions which have had 
some marked success. We want to pursue that with you further. 
Frankly, when we took a look there they were not quite as rosy 
as some of the preliminary suggestions had been. And when we 
asked for the statistics they were not available. So the 
business of finding what has worked is somewhat elusive.
    Director Kane, I am going to leave you to Senator Biden 
because that will be sufficient.
    In conclusion, my time is almost up, I want to ask you, Mr. 
Meehan, for your thinking on a coordinated approach on the 
Federal programs. You have a lion's share with the Eastern 
District and you have had a lot of experience in this field. 
One of the items that I did not mention is your serving as 
executive director for my Philadelphia office and really 
running the State program. What we are going to be looking to 
you to do, when we come up with what works and what does not 
work, is to ask you to take on an additional burden, if we may, 
to coordinate where these Federal programs are going, because 
you have got the best handle on the way it looks in a variety 
of counties.
    Your testimony summarized where crime has gone down. But I 
think that a big job of the prosecuting attorney--and I have 
had some experience at it--is to be proactive in the prevention 
field as well as in the prosecution field because you have 
special insights as a prosecutor. So we are going to be calling 
on you to do that. You do not have to give an answer now 
because I have gone over my time which I do not like to do.
    I now yield to Senator Feinstein.
    Senator Feinstein. Thank you very much.
    First of all it is great to see Paul Vallas. I first met 
him, Mr. Chairman, in Chicago when he was running things there 
and found him to be an excellent superintendent, and now here 
in Philadelphia, and my hope would be we would be able to get 
him in California one day, so I will leave that one out there.
    I am somewhat surprised by the testimony of this law 
enforcement panel. No one has mentioned a specific gang, and my 
information from the National Drug Intelligence Center 
indicates that there are four specific gangs functioning in 
Pennsylvania today. They are Bloods, they are Gangster 
Disciples, they are Crips, they are MS-13, and there is the 
group Tiny Rascals also. I guess I see gangs very differently, 
because they are a massive interstate criminal enterprise 
today. What surprises me is that none of the law enforcement 
people talked about this.
    So my question of them is this, which gangs do you find 
operate here, meaning Pennsylvania? What ages are they? What 
crimes do they commit? And what would you say is the total gang 
membership in both Philadelphia and Pittsburgh and this State, 
if you have it?
    Commissioner Johnson. If I can go first--but I would give 
it to the U.S. Attorney first. I am sorry.
    Mr. Meehan. Not at all.
    Commissioner Johnson. We do not really have a gang problem 
here in the city of Philadelphia, per se. We do not have the 
Bloods, the Crips. I think MS-13 is starting to arrive here. 
Most of our problem is drug related and has been drug related 
for a long period of time. But as far as organized gangs here 
in the city of Philadelphia it does not exist, at least not on 
a large scale like Chicago or California or some other place. 
Maybe the U.S. Attorney might know a little more. I mean, we 
have some people who are identifying themselves as gangs. In 
the early 1970s we had a lot of gangs, territorial type things, 
but that does no longer exist here in city of Philadelphia.
    Mr. Meehan. Senator, if I may, to be responsive to your 
question, we have seen some activity from the Almighty Latin 
Kings. It is largely in the Latino community and actually 
largely outside the city of Philadelphia. What the commissioner 
says is my impression as well, and it is due to the nature of 
Philadelphia being a city of neighborhoods where we have an 
indigenous population. It is difficult for the gang culture to 
break into the neighborhood context. But it because they are 
working very effectively already; they have got their own 
industry. They do not need direction from Chicago or Los 
Angeles to be effective at selling drugs or committing crime.
    Senator Feinstein. So what you are saying effectively is 
that you do not have the type of gang problem that we are 
talking about on the West Coast of large organized gang 
syndicates, bigger than organized crime ever was.
    Mr. Meehan. We do not have it, but I do not want to make 
that a misstatement. You are so correct in saying, we still 
have the same issues with younger people being recruited into 
criminal organizations and those organizations controlling the 
tempo of neighborhoods. What we have is a structure of a lot of 
loosely-knit independent organizations that do not rely on the 
national structure like MS-13 and the Latin Kings.
    Senator Feinstein. Thank you.
    Chief McDonald. We see the same thing in Pittsburgh. We are 
a city of neighborhoods as well, so when we see gangs we see 
neighborhood groups, even down to the level of streets, 
specific street groups, sprouting up. Then on numerous 
occasions there are altercations among those groups.
    But recently we saw a group in our Oakland section of the 
city which identified themselves as the Oakland Crips, but they 
are no relationship to the Crips from California or anywhere 
else. But this was a youth gang, two juveniles were arrested 
for bank robbery and they were under the leadership of an adult 
who was later arrested. Because those are the types of 
organizations we are looking at.
    Senator Feinstein. Thank you. I just want to say one thing. 
This is a very important distinction; violence, drug 
trafficking, drug use, other crimes to what has really grown up 
in the United States. You should really be very proud and 
pleased that you have escaped it, maybe because of your 
diligence and your ability to deal with it. I certainly hope 
that is the case. But, Mr. Chairman, my recommendation would be 
that you hold a meeting like this in Los Angeles. Trust me, you 
will hear a very, very different story.
    Thank you.
    Chairman Specter. Senator Feinstein, that is a suggestion 
which I think it is a very important one and we will try to 
accomplish that consistent with our schedule. I know in the 
nation of California you have special problems. How many do you 
have now, 34 million?
    Senator Feinstein. Thirty-five-and-a-half million.
    Chairman Specter. How many times is that the size of 
Delaware?
    Senator Feinstein. Delaware is not bigger than city and 
county of San Francisco. So we will leave it at that.
    Senator Biden. I would point out we are in Constitution 
Hall. The Connecticut Compromise which guaranteed there was a 
Constitution--the Founders were brilliant enough to provide two 
Senators from Delaware, as they have from every other--
    [Laughter.]
    Chairman Specter. How did Delaware get to be the number one 
State though?
    Senator Biden. We seceded from Pennsylvania.
    Chairman Specter. The start of the Civil War.
    [Laughter.]
    Chairman Specter. Senator Biden, your time is on for 
questioning.
    Senator Biden. Thank you, Mr. Chairman.
    I know I could speak for the panel when I say, our drug 
problem is immense here. It is gigantic. Reconfigured a 
different way, I am not going to take my five minutes to go 
into it, but for the record, Pat--Mr. Meehan and Chief, both of 
you, and Chief McDonald, I think you should submit for the 
record what the nature of the drug problem is in your 
communities, as well as I would ask Jim to do the same thing 
for the record as it relates to Delaware. Because we have some 
of the, unfortunately, the purest heroin and the purest stuff 
that comes through here, and it comes into the port, and comes 
into the port of New York and works its way down 95, and we 
have a gigantic problem that manifests itself the same way but 
different levers. I think we should not leave the impression 
that we are just doing fine here.
    I know that is not what you are saying. You are responding 
to specific questions and it is important to do that.
    Let me ask me you, Chief McDonald, you indicated that you 
had to move away from the community policing. How recently did 
you have to do that?
    Chief McDonald. About three years ago.
    Senator Biden. Chief, you indicated in your written 
testimony that a strong police presence on our streets and in 
our communities has proven successful as a deterrent to crime, 
and a strong role model for youth out of this community 
policing. Have you been able to maintain your force, Chief, at 
the same--at its end strength, its authorized end strength?
    Commissioner Johnson. No, from July 1, 2003 to the present 
we are down approximately 620 police officers.
    Senator Biden. Has that had an effect on your ability to 
provide services in the city?
    Commissioner Johnson. No, it does not. I have a philosophy 
that law enforcement by itself is never going to change the 
quality of life. And I think we place--police officers more on 
the streets of Philadelphia and have to understand the fiscal 
concerns of the city and I have to deal with that. But the 
facts are that it has to be a holistic type approach. I also 
feel as though traditional policing is not working, and 
traditional policing is only locking people up, and we will 
never arrest out of the problem that we are having.
    I think that the clergy, the community, the politicians, 
everyone has to be involved in this. If they are only going to 
depend on law enforcement to change the quality of life, it 
will not happen. We can make a whole lot of arrests, but I 
think what happens, the community is not concerned about the 
arrests. They are concerned about quality of life. It is not 
about statistics, it is about quality of life and I think that 
is very important.
    Senator Biden. Some of you have mentioned various acts that 
have worked, the community prevention grants, the juvenile 
accountability block grants, the program that you mentioned, 
Pat, that was so successful, Project Safe Neighborhoods, et 
cetera. If my numbers are correct, each of those programs is 
suffering fairly significant cuts. So on the one hand we are 
cutting police either because we are stopping the COPS program 
or the cities do not have the money so you end up with fewer 
police. And I understand your generic point, Chief, that cops 
alone are not going to stop crime by any stretch of the 
imagination. You have to have this holistic approach.
    That then means that you are talking about prevention 
programs and programs dealing with recidivism. Yet, 
Superintendent Vallas, have you been able to significantly 
increase your afterschool programs?
    Mr. Vallas. We have, but only because of the support of 
Senator Specter and Senator Santorum. Let me point out that the 
additional funds we have been able to secure have allowed us to 
have probably one of the largest per capita afterschool 
extended day programs probably in the country. I will point out 
that obviously it has an effect of keeping our young people out 
of harm's way. It has the added benefit of helping us meet AYP. 
I think we have gone from 22 schools making adequate yearly 
progress to 160 in just the last two years. So clearly we have 
been--but it has required that type of special intervention and 
special assistance for us to have the type of afterschool 
extended day activities.
    Let me also point out that 180 of our schools, which is 
about 80 percent, about 75 percent of our schools not only have 
school district afterschool extended day programs but we have 
community-based programs. So many of our schools, for example, 
the Maris Beacon program goes on into the early evening. So our 
buildings are utilized for more than just school-based 
afterschool extracurricular activities.
    Senator Biden. There is one thing each of you--my time is 
up.
    Chairman Specter. Go ahead, Joe.
    Senator Biden. If there is one thing, just one thing that 
each of you could have us do--not generically, specifically--if 
you had one specific request what would you have us do? What 
would you have the United States, the Federal Government do? 
What one thing, if you only got one?
    I am not being facetious. Because, look, when we get 
through all this--we all know about holistic approaches. We 
have been doing this for as long as you all have been doing it. 
We care very deeply about it. We know the relationship between 
preschool, afterschool. We know the relationship between law 
enforcement dealing with gangs, dealing with treatment, et 
cetera. But when it gets down to it, we end up with trying to 
figure out what works and what does not work, and for each one 
of you--it may very well be you decide you need more probation 
officers, or you need more funding for afterschool, or you need 
more funding--what one thing--it is unfair, but what one thing, 
if you had to pick, would you want more help on from the 
Federal level?
    Mr. Vallas. Obviously, fully funding No Child Left Behind, 
but let us focus specifically on the issue at hand. Summer 
jobs, jobs programs for young people, and I will tell you why. 
One of the things that we have attempted to do is to create an 
incentive for children to stay in school and to stay well 
behaved. Congressmen Fattah, who is in the audience, initiated 
his corps Philly scholar program which basically says, if 
students are in good standing, when they graduate they will be 
provided a scholarship equal to their first year differential, 
what they access through obviously loans and student grants and 
what they do not have to go to college their first year.
    Same thing, drivers ed is something that if children are in 
good standing we will provide them. Summer jobs, summer 
internships so we can get the kids into constructive activities 
and then use those summer jobs and summer internships as an 
incentive to keep kids in school and to keep--and to help 
influence student behavior. I think it would be the one thing 
beyond, obviously, fully funding No Child Left Behind that 
would make a dramatic difference.
    Mr. Meehan. Senator, I need to identify, because I am in 
law enforcement, my appreciation, and I would ask you to 
continue to sustain the Project Safe Neighborhoods kind of 
program, and by extension, the violent crime impact teams. We 
have an ability to work at the local level in a unique way. 
Each district attorney works with my office and local policy to 
identify unique problems to their neighborhood. It gives us 
flexibility. Those assistant prosecutors are assigned to my 
office. We make decisions about which cases to bring locally or 
federally. That gives us tremendous leverage, and we use the 
resources well.
    I will say, we help clear the field. I am speaking for law 
enforcement. But once we have done that, I need to be able to 
rely on the support mechanisms from youth violence and others 
to wrap around, to prevent the future violence once we have 
cleaned it out.
    Senator Biden. Chief?
    Chief McDonald. Like Mr. Meehan, I would ask you to 
continue to fund Project Safe Neighborhood. Also to encourage 
and continue to encourage local law enforcement's working 
relationship with Federal agencies. We think we in the city of 
Pittsburgh have an excellent working relationship with ATF, the 
FBI, the DEA, as well as State agencies and local, county 
agencies as well as the U.S. Attorney's Office. I think by 
working together in a coordinated effort we are able to pool 
our resources with the limited funding that is available. So I 
would ask you to keep encouraging those efforts.
    Senator Biden. Jim?
    Mr. Kane. We are trying to roll nine into one. Continue to 
provide the balanced resources that you have had the wisdom to 
do in the past, ranging from prevention all the way through the 
system to incarceration and aftercare, and also leadership in 
telling us what works and what does not.
    Commissioner Johnson. I just came from Sun Valley Saturday 
from a major city chief conference and the consensus was with 
all the major city chiefs, and there are 56 of us, is that 
international terrorism is a problem and we understand that. 
But domestic terrorism is just as big of a problem and we need 
funding not just for law enforcement, for all agencies that are 
going to be proactive to save our children.
    Senator Biden. Thank you.
    Chairman Specter. Thank you very much, Senator Biden. I 
thank Senator Feinstein and Senator Biden for coming from their 
home States and from Washington to this hearing, and my 
colleague Senator Santorum. I thank our distinguished panel of 
witnesses, Ms. Hart, Ms. Arias, Mr. Flores, Mr. Vallas, Mr. 
Meehan, Chief McDonald, Mr. Kane, and Commissioner Johnson. I 
want to acknowledge formally the presence of Congressman Fattah 
whom I had referred to earlier on the GEAR UP program where he 
had the idea and my subcommittee had $2 billion. He had a 
little of the advantage on that. And also acknowledge the 
presence of Ms. Ruth Dubois here who has been a leader in drug 
rehabilitation. She brought her husband, Federal Judge Jan 
Dubois as well.
    In conclusion, let me say that this is just the beginning. 
We are going to be pursuing the issues which have been raised 
here with going over the programs nationally which work and 
discarding the ones which do not. Also, the State of 
Pennsylvania and there are outstanding questions here which we 
are going to be pursuing with Mr. Meehan and Chief McDonald. We 
have asked Commissioner Johnson to help us beyond, and we thank 
Superintendent Kane for coming and we are going to be studying 
Superintendent Vallas' compendium.
    But this is not going to be a hit-and-run hearing. The 
Judiciary Committee is going to be following up. We have the 
authority on reauthorization and authorization to identify 
programs, and some punch also on the appropriations process. So 
this is an issue which is beyond challenging. It is daunting. 
Beyond any question, it is daunting to make any significant 
inroads in it, but we are determined to do that.
    So thank you all for coming and that concludes our hearing. 
Thank you.
    [Applause.]
    [Whereupon, at 11:25 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]


    <GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
